App. 1
967 F.3d 1082
United States Court of Appeals, Tenth Circuit.
FOXFIELD VILLA ASSOCIATES, LLC;
Richard A. Bartlett; Ernest J. Straub, III;
Bartlett Family Real Estate Fund, LLC; PRES, LLC,
Plaintiffs-Appellants,
v.
Paul ROBBEN; RDC Holdings, LLC,
Defendants-Appellees.
No. 18-3054
|
FILED July 31, 2020
Appeal from the United States District Court
for the District of Kansas (D.C. Nos. 2:12-CV02528-CM and 2:13-CV-02120-CM-JPO)
Attorneys and Law Firms
John M. Duggan (Deron A. Anliker with him on the
briefs), Duggan Shadwick Doerr & Kurlbaum LLC,
Overland Park, for Plaintiffs-Appellants.
Robert M. Pitkin, Horn Aylward & Bandy, LLC, Kansas
City, Missouri, for Defendants-Appellees.
Before LUCERO, HARTZ, and CARSON, Circuit Judges.
Opinion
CARSON, Circuit Judge.
We consider whether ownership interests in a
limited liability company are securities under the

App. 2
Securities Exchange Act of 1934. The specific attributes of the LLC interests in this case compel us to conclude that they are not. We thus affirm the district
court’s order declining to characterize the LLC interests as securities and granting summary judgment to
the defendants on that basis.
I.
This appeal stems from an attempt to hold Defendant Paul Robben liable for securities fraud. In
short, various Plaintiffs allege that Mr. Robben fraudulently induced them to purchase ownership interests
in a Kansas limited liability company named Foxfield
Villa Associates, LLC (“Foxfield”). Plaintiffs also argue
that those interests were securities under the Securities Exchange Act of 1934. Plaintiffs thus maintain
that Mr. Robben violated section 10(b) of the 1934 Act
(its broad antifraud provision) and SEC Rule 10b-5 (an
administrative regulation expounding upon that antifraud provision) when engaging in his allegedly deceitful conduct. See generally 15 U.S.C. § 78j(b) (codifying

App. 3
section 10(b));1 17 C.F.R. § 240.10b-5 (codifying SEC
Rule 10b-5).2

1

Section 10(b) contains the following language:
It shall be unlawful for any person, directly or indirectly, by the use of any means or instrumentality of
interstate commerce or of the mails, or of any facility of
any national securities exchange . . . [t]o use or employ,
in connection with the purchase or sale of any security
registered on a national securities exchange or any security not so registered, or any securities-based swap
agreement any manipulative or deceptive device or
contrivance in contravention of such rules and regulations as the Commission may prescribe as necessary or
appropriate in the public interest or for the protection
of investors.
15 U.S.C. § 78j(b) (footnote omitted).
2
SEC Rule 10b-5 contains the following language:
It shall be unlawful for any person, directly or indirectly, by the use of any means or instrumentality of
interstate commerce, or of the mails or of any facility of
any national securities exchange,
(a) To employ any device, scheme, or artifice to defraud,
(b) To make any untrue statement of a material fact or to omit to state a material fact
necessary in order to make the statements
made, in the light of the circumstances under which they were made, not misleading,
or
(c) To engage in any act, practice, or course
of business which operates or would operate
as a fraud or deceit upon any person, in connection with the purchase or sale of any security.
17 C.F.R. § 240.10b-5.

App. 4
The specifics are not so simple. The relevant complaint, for instance, contains 114 pages of allegations
against Mr. Robben and his company RDC Holdings,
LLC (“RDC”)—the other defendant in this case—describing their supposedly fraudulent behavior over
several years.3 Relatedly, the discovery process and
procedural history that arose out of those detailed allegations leaves us with a long and dense appellate record. The course of litigation also highlights the case’s
complexity: the district court issued stays and consolidated lawsuits, parties came and went, and myriad
motions peppered the district docket.
Fortunately, we need not discuss most of those details. The district court granted summary judgment
to Mr. Robben and RDC on the sole ground that Plaintiffs’ interests in Foxfield were not securities under the
1934 Act. Because that narrow inquiry—rather than
whether Mr. Robben and RDC’s conduct was fraudulent—is the lone issue on appeal, we discuss only the
factual background and circumstances that influence
whether Plaintiffs’ interests fall under the 1934 Act’s
definition of “security.”

3

In reality, Mr. Robben did not directly own RDC. Instead,
Development Services Corporation—a company that Mr. Robben
directly owned—was RDC’s sole member. But because none of the
parties contend that distinction is material to the outcome of this
appeal, for simplicity we omit any reference to Development Services Corporation as the link between Mr. Robben and RDC. Instead, we discuss RDC as if Mr. Robben owned and operated it
outright.

App. 5
To that end, we begin by examining the history
of Foxfield. At the most basic level, Mr. Robben—an
experienced residential real estate developer—conceived Foxfield as a vessel through which its members
would purchase specific tracts of real estate. Some of
the targeted tracts consisted of raw land that remained
undeveloped; other tracts had been developed for residential use but had not yet been built upon. Even if
further development was necessary, the hope was that
the members—again through Foxfield—could eventually sell the acquired land for the construction of residential homes. If all had gone according to plan, the
members would have earned considerable profits.
Mr. Robben eventually enlisted his acquaintances
Richard Bartlett and Ernest Straub to take part in the
Foxfield endeavor. Mr. Bartlett was an established
businessman who had earned his wealth in the technology sector. Mr. Straub owned construction companies
that specialized in both commercial and residential
real estate construction. Both men had participated in
real estate development projects with Mr. Robben in
the past.
Even so, Mr. Bartlett and Mr. Straub were not actual members of Foxfield. That distinction instead belonged to the Bartlett Family Real Estate Fund, LLC
(“BFREF”) and PRES, LLC (“PRES”), companies which
Mr. Bartlett and Mr. Straub respectively owned and operated either in full or in part. BFREF—a company Mr.
Bartlett owned outright with his wife—owned a 50%
interest in Foxfield. PRES, in turn, owned the remaining 50% interest in Foxfield. But unlike Mr. Bartlett’s

App. 6
ownership of BFREF, Mr. Straub did not own PRES
outright. Rather, Mr. Straub held only a 50% ownership interest in PRES. The other 50% of PRES belonged to Mr. Robben’s company, RDC.
Foxfield’s operating agreement governed how BFREF
(read Mr. Bartlett) and PRES (read Mr. Straub and Mr.
Robben) made decisions and took actions on behalf of
the new, member-managed enterprise. Most decisions
and actions—e.g., acquiring the targeted real estate,
establishing the corresponding sales prices for that
land, and selecting and contracting with Foxfield’s advisors—required only a majority in interest, which the
operating agreement defined as any member or combination of members holding more than a 50% ownership
interest in Foxfield. Other specified decisions and actions—e.g., loaning money to other people or entities,
assuming the liabilities and obligations of other people
or entities, and filing for bankruptcy—required a supermajority in interest, which the operating agreement
defined as any member or combination of members
holding 65% or more ownership interest in Foxfield.
And still other decisions and actions—e.g., merging or
consolidating Foxfield with another entity—required
the unanimous consent of all members.
Practically speaking, though, the fact that Foxfield
comprised only two members with equal ownership interests effectively nullified any distinction between decisions requiring a majority in interest, supermajority
in interest, or unanimous consent. After all, given that
BFREF and PRES each owned exactly 50% of Foxfield,
even a decision requiring just a majority in interest

App. 7
still required the assent of both members; one member
acting alone could not tip the scales in its favor. The
same held true for decisions requiring a supermajority
in interest: no individual member held 65% or more of
the ownership interests in Foxfield, so both BFREF
and PRES had to agree on any such decision before it
could take effect. And by definition, unanimous decisions required the approval of both members.
In any event, one decision that required “only” a
majority in interest was the election and removal of
Foxfield’s officers. The members agreed (and the operating agreement confirms) that Mr. Robben would
serve in dual roles as the original president and treasurer. And under the operating agreement, serving as
president also made Mr. Robben both the chief executive officer (CEO) and chief operating officer (COO) of
Foxfield. Mr. Robben accordingly managed “the day to
day operations” of Foxfield and was responsible for
“carr[ying] into effect” the decisions of Foxfield’s members. As treasurer, Mr. Robben also had the duties of
keeping Foxfield’s accounts and preparing all of its financial statements.
Mr. Bartlett and Mr. Straub also served as officers
of Foxfield. Mr. Bartlett acted as Foxfield’s secretary. In
that capacity, the operating agreement required him to
attend all meetings between members and record the
proceedings of those meetings. Mr. Straub, in turn,
served as the company’s vice president. His primary
responsibility in that role was to assume the duties of
the president and act in his place should Mr. Robben
be unable to do so.

App. 8
The operating agreement also included other provisions dictating the rights and duties of Foxfield’s
members. For example, the operating agreement required BFREF and PRES to “devote so much of [their]
time and attention as is reasonably necessary and advisable to manage the affairs of [Foxfield] to the best
advantage of [Foxfield].” Further, each member—including its designated “agent and representative”—
had the right to inspect and copy any of Foxfield’s financial records.
Finally, in exchange for their ownership interests,
the operating agreement required BFREF and PRES
to make capital contributions to Foxfield to help fund
the enterprise. To that end, BFREF and PRES each
made $200,000 contributions to the company. Mr. Bartlett provided the entire $200,000 on behalf of BFREF.
Mr. Straub and Mr. Robben, on the other hand, each
provided $100,000 on behalf of PRES.4
Several weeks passed between the moment when
BFREF and PRES bought their ownership interests in
Foxfield and the moment when Foxfield acquired the
targeted tracts of real estate. When that day finally arrived, Mr. Robben was the one who purchased that
land on behalf of Foxfield and its members. And he did
so through a resolution that BFREF and PRES had
unanimously passed earlier that very same day. That
resolution “authorized and empowered” Mr. Robben to
4

Relatedly, Mr. Bartlett also made an uncollateralized and
uninsured $400,000 loan to Foxfield even though the operating
agreement did not obligate him to do so. That loan, however, is
not at issue in this appeal.

App. 9
execute a vast array of banking documents (such as
mortgages, promissory notes, etc.) on Foxfield’s behalf
“in connection with the acquisition of lots, the construction of residences, and the sale of residences.” The
resolution, in other words, gave Mr. Robben permission
to bind Foxfield and its assets without first obtaining
BFREF’s and PRES’s—and therefore Mr. Straub’s and
Mr. Bartlett’s—approval. Thus, in the end, Mr. Robben
was no longer just the president of Foxfield who merely
“carried into effect” the decisions of BFREF and PRES.
Instead, as of the day the resolution passed, he could
manage and control the enterprise’s assets as he saw
fit.
Despite that new power, Mr. Robben’s efforts at using the acquired real estate to turn a profit for Foxfield
and its members ultimately proved unsuccessful. In response, five Plaintiffs—Mr. Bartlett, Mr. Straub, BFREF,
PRES, and Foxfield itself—eventually banded together
and sued Mr. Robben and RDC. The relevant document
includes one claim based on federal law (the securities
fraud action described above) and twenty-three claims
based on state law.
As we previously mentioned, the district court
granted summary judgment to Mr. Robben and RDC
on Plaintiffs’ securities fraud claim because the court
determined that BFREF’s and PRES’s membership interests in Foxfield were not securities (at least in the
way that the 1934 Act defines that term). That left the
twenty-three state law claims, over which the district
court declined to exercise supplemental jurisdiction
given that no other federal claims remained. See 28

App. 10
U.S.C. § 1367(c)(3). The district court therefore dismissed the state law claims and entered final judgment for Mr. Robben and RDC.
Plaintiffs now appeal. They first challenge the
district court’s conclusion that BFREF’s and PRES’s
membership interests in Foxfield were not securities
under the 1934 Act. Because that challenge arises from
the “district court’s grant of summary judgment,” our
review is de novo. Bird v. West Valley City, 832 F.3d
1188, 1199 (10th Cir. 2016) (quoting Emcasco Ins. Co.
v. CE Design, Ltd., 784 F.3d 1371, 1378 (10th Cir.
2015)). Plaintiffs also contest the district court’s decision to decline supplemental jurisdiction over their remaining state law claims, an issue that we review for
abuse of discretion. Exum v. U.S. Olympic Comm., 389
F.3d 1130, 1139 (10th Cir. 2004). We exercise jurisdiction under 28 U.S.C. § 1291.
II.
Under the Securities Exchange Act of 1934, a “security” is not just a stock that brokers buy and sell on
Wall Street. See Marine Bank v. Weaver, 455 U.S. 551,
556, 102 S.Ct. 1220, 71 L.Ed.2d 409 (1982) (observing
that “the coverage of the antifraud provisions of the securities laws is not limited to instruments traded at
securities exchanges and over-the-counter markets”).
That term instead encompasses a much broader set of
financial instruments—as the Supreme Court summarized, “virtually any instrument that might be sold as
an investment” regardless of its form or name. Reves v.

App. 11
Ernst & Young, 494 U.S. 56, 61, 110 S.Ct. 945, 108
L.Ed.2d 47 (1990); see also Security, Black’s Law Dictionary (11th ed. 2019) (“A security indicates an interest based on an investment in a common enterprise
rather than direct participation in the enterprise.”).
The 1934 Act itself, though, does not use that simplified description. Rather, it defines the word “security”
by listing the many instruments “that in our commercial world fall within the ordinary concept of a security.” United Hous. Found., Inc. v. Forman, 421 U.S. 837,
847–48, 95 S.Ct. 2051, 44 L.Ed.2d 621 (1975) (quoting
H.R. Rep. No. 85, 73d Cong., 1st Sess., 11 (1933)). Those
instruments include
any note, stock, treasury stock, security future, security-based swap, bond, debenture,
certificate of interest or participation in any
profit-sharing agreement or in any oil, gas, or
other mineral royalty or lease, any collateraltrust certificate, preorganization certificate or
subscription, transferable share, investment
contract, voting-trust certificate, certificate of
deposit for a security, any put, call, straddle,
option, or privilege on any security, certificate
of deposit, or group or index of securities (including any interest therein or based on the
value thereof), or any put, call, straddle, option, or privilege entered into on a national
securities exchange relating to foreign currency, or in general, any instrument commonly
known as a “security”; or any certificate of interest or participation in, temporary or interim certificate for, receipt for, or warrant or
right to subscribe to or purchase, any of the

App. 12
foregoing; but shall not include currency or
any note, draft, bill of exchange, or banker’s
acceptance which has a maturity at the time
of issuance of not exceeding nine months, exclusive of days of grace, or any renewal thereof
the maturity of which is likewise limited.
15 U.S.C. § 78c(a)(10) (emphases added).5
Today we consider only the three instruments that
we emphasize above: investment contracts, certificates
of interest or participation in a profit-sharing agreement, and instruments commonly known as securities.
Plaintiffs argue that BFREF’s and PRES’s interests in
Foxfield fall under each of those labels and are therefore securities under the 1934 Act. We consider each of
the three in turn.6
5

This definition of “security” under the Securities Exchange
Act of 1934 is “essentially identical in meaning” to the definition
of that same word under the Securities Act of 1933. SEC v. Edwards, 540 U.S. 389, 393, 124 S.Ct. 892, 157 L.Ed.2d 813 (2004);
see also 15 U.S.C. § 77b(a)(1). For that reason, throughout this
opinion we “refer to cases involving the 1933 and 1934 Acts without distinguishing between which Act each case involved.” SEC v.
Thompson, 732 F.3d 1151, 1158 n.5 (10th Cir. 2013) (quoting Resolution Trust Corp. v. Stone, 998 F.2d 1534, 1538 n.3 (10th Cir.
1993)); see also Landreth Timber Co. v. Landreth, 471 U.S. 681,
686 n.1, 105 S.Ct. 2297, 85 L.Ed.2d 692 (1985) (“We have repeatedly ruled that the definitions of ‘security’ in . . . the 1934 Act and
. . . the 1933 Act are virtually identical and will be treated as such
in our decisions dealing with the scope of the term.”).
6
Because Plaintiffs do not argue on appeal that BFREF’s
and PRES’s interests in Foxfield constitute any other instruments
that fall under the Act’s definition of “security”—for example,
stocks or bonds—we limit our analysis to the three instruments
that Plaintiffs mention. See United States v. Yelloweagle, 643

App. 13
A.
The Supreme Court first defined an “investment
contract”—a term that the 1934 Act itself left undefined—nearly seventy-five years ago in SEC v. W.J.
Howey Co., 328 U.S. 293, 66 S.Ct. 1100, 90 L.Ed. 1244
(1946). In that case, the Supreme Court held that an
investment contract
means a contract, transaction or scheme whereby
a person invests his money in a common enterprise and is led to expect profits solely from
the efforts of the promoter or a third party, it
being immaterial whether the shares in the
enterprise are evidenced by formal certificates or by nominal interests in the physical
assets employed in the enterprise.
Id. at 298–99, 66 S.Ct. 1100 (emphasis added). We have
since deconstructed that definition into three parts:
“(1) an investment, (2) in a common enterprise, (3) with
a reasonable expectation of profits to be derived from
the entrepreneurial or managerial efforts of others.”
SEC v. Scoville, 913 F.3d 1204, 1220 (10th Cir. 2019)
(quoting SEC v. Shields, 744 F.3d 633, 643 n.7 (10th
Cir. 2014)).
The first and second of those requirements are not
at issue. Nobody disputes that BFREF and PRES
made investments ($200,000 capital contributions) in
a common enterprise (Foxfield). The only question is
F.3d 1275, 1280 (10th Cir. 2011) (observing that when an appellant does not pursue an issue on appeal, “we ordinarily consider
the issue waived”).

App. 14
whether the profits that BFREF and PRES expected to
gain as a result were “to come solely from the efforts of
others.” Howey, 328 U.S. at 301, 66 S.Ct. 1100.
In coming to an answer, we first note that—at
least in our circuit—the word “solely” in that phrase
does not literally mean “solely.” See Crowley v. Montgomery Ward & Co., 570 F.2d 875, 877 (10th Cir. 1975).
Instead, to prevent an “unduly restrictive application”
of the Howey test, we have held that the word “solely”
in the Howey definition more or less means “significant[ly].” Id. The result is that “[a]n investment satisfies [Howey’s] third prong when the efforts made by
those other than the investor are the ones which affect
significantly the success or failure of the enterprise.”
Banghart v. Hollywood Gen. P’ship, 902 F.2d 805, 807
(10th Cir. 1990) (emphasis added).
We also note that our decision in Avenue Capital
Management II, L.P. v. Schaden, 843 F.3d 876 (10th Cir.
2016), governs how we apply Howey’s third prong
when determining whether LLC ownership interests—
like those that BFREF and PRES have in Foxfield—
are investment contracts. See id. at 882 (determining
“whether the [LLC] interests conveyed to [the plaintiffs] constitute investment contracts”). Schaden directs us to look to whether an investor in the LLC has
“the ability to control the profitability of his investment, either by his own efforts or by majority vote in
group ventures.” Id. (quoting Gordon v. Terry, 684 F.2d
736, 741 (11th Cir. 1982)). If he does, then he “is not
dependent upon the managerial skills of others.” Id.
(quoting Gordon, 684 F.2d at 741). Like the Howey test

App. 15
from which it derives, though, the Schaden analysis
is not an all-or-nothing, black-or-white test. Instead,
the Schaden “ability to control” test reflects our emphasis on whose efforts were the “undeniably significant
ones,” Maritan v. Birmingham Props., 875 F.2d 1451,
1457 (10th Cir. 1989) (emphasis added), and therefore
operates as a sliding scale: “[t]he greater the control
acquired by [the investors in the LLC], the weaker the
justification to characterize their investments as investment contracts.” Schaden, 843 F.3d at 882.
Schaden outlines six factors that we consider “in
assessing [that] degree of control”: (1) the investors’
“access to information”; (2) the investors’ “contractual
powers”; (3) the investors’ “contribution of time and effort to the success of the enterprise”; (4) “the adequacy
of financing”; (5) “the nature of the business risks”; and
(6) “the level of speculation.” Id. Importantly, we list
those factors in the order of their significance. The first
factor—access to information—“is the most significant
factor” because “the ‘principal purpose of the securities
acts is to protect investors by promoting full disclosure
of information necessary to informed investment decisions.’ ” Shields, 744 F.3d at 645 (quoting Maritan, 875
F.2d at 1457). The second factor—the investors’ express and implied contractual powers—follows closely
behind. The reason is straightforward: regardless of
“whose efforts actually affected the success or failure
of the enterprise,” an investor who has the contractual
power to control the enterprise—even if he chooses not
to use that power—has “the sort of influence” that protects him “against a dependence on others.” Maritan,

App. 16
875 F.2d at 1457–58 (emphasis added) (quoting Matek
v. Murat, 862 F.2d 720, 730 (9th Cir. 1988)); see also
Schaden, 843 F.3d at 884 (“[W]e analyze the measure
of control that [the investors in the LLC] could exercise
over [the LLC]. . . .” (emphasis added)).
The third factor—the investors’ contribution of
time and effort—makes clear, though, that the
Schaden test does not live and die with the investors’
contractual powers. Although those powers do take
precedence, see supra, the investors’ actual involvement in the LLC (or lack thereof) can clarify whether
they had the ability to control the profitability of their
investments. But those circumstances are narrow. As
we alluded to above, for example, “it [is] not enough”
that the investors in the LLC were uninvolved simply
because they “in fact relied on others for the management of their investment[s]” by choice. Schaden, 843
F.3d at 884 (alteration in original omitted) (quoting
Williamson v. Tucker, 645 F.2d 404, 424 (5th Cir. 1981)).
Instead, the investors’ marginal participation in the
LLC must have been because, despite any putative
contractual powers to the contrary, they were in reality
“so dependent on a particular manager that they
[could not] replace him or otherwise exercise ultimate
control.” Id. (quoting Williamson, 645 F.2d at 424).
Schaden’s third factor therefore contemplates a practical inability to control the profitability of the investment rather than a voluntary decision not to control it.

App. 17
And we will generally only conclude that practical inability exists in these circumstances7:
(a) When the investors’ powers as exercised
are so insubstantial, ineffective, or illusory
that the LLC is virtually indistinguishable
from a limited partnership, an entity “which
is usually held to be a security.” Shields, 744
F.3d at 644, 647; see also Great Lakes Chem.
Corp. v. Monsanto Co., 96 F. Supp. 2d 376, 391
(D. Del. 2000) (observing that limited partners
generally cannot “exercise[ a] managerial role
in the partnership’s affairs,” so courts usually
treat them as “passive investors” who rely
solely on the efforts of others).
(b) When the investors themselves are so “inexperienced and unknowledgeable in business affairs” that they are “incapable of
intelligently exercising” their powers under
the LLC. Shields, 744 F.3d at 644 (quoting
Banghart, 902 F.2d at 807).
(c) When the manager or promoter of the
LLC is so unique that, even if the investors do
retain “some practical control” over the LLC,
they still “have no realistic alternative to the
manager” or promoter. SEC v. Merch. Capital,
LLC, 483 F.3d 747, 763 (11th Cir. 2007); see
also Shields, 744 F.3d at 644.
See also Williamson, 645 F.2d at 424 (identifying these
three circumstances for the first time); Schaden, 843
7

We use letters rather than numbers when listing these circumstances to emphasize that they are a subset of Schaden’s
third factor.

App. 18
F.3d at 884 (“[W]e view the Williamson approach as a
supplement to controlling Supreme Court and circuit
precedent in determining . . . whether a particular investment is a security.” (alteration in original) (quoting
Shields, 744 F.3d at 645)).8
The fourth, fifth, and sixth Schaden factors—the
adequacy of financing, the business risks, and the level
of speculation—are the least relevant. This trio of factors can only confirm whether the LLC interests are
investment contracts. See Ballard & Cordell Corp. v.
Zoller & Danneberg Exploration, Ltd., 544 F.2d 1059,
1065 (10th Cir. 1976) (“Most investment contract cases
involve the financing of speculative and poorly financed schemes by soliciting funds from uninformed
and unskilled investors.” (emphasis added)). But they
8

The Williamson approach originated to rebut the “strong
presumption” that general partnerships are not investment contracts. Shields, 744 F.3d at 643 (quoting Banghart, 902 F.2d at
808); see also id. (observing that this presumption exists “because
the [general] partners—the investors—are ordinarily granted significant control over the enterprise” (quoting Banghart, 902 F.2d
at 808)). Even though we also now apply the Williamson approach
when LLCs are at issue, see Schaden, 843 F.3d at 884, we stress
that—unlike general partnerships—we do not presume that
LLCs are not investment contracts. Nor, on the other hand, do we
presume that LLCs are investment contracts as we would for limited partnerships. See Shields, 744 F.3d at 647. Instead, given
that LLCs “are hybrid entities that combine desirable characteristics of corporations, limited partnerships, and general partnerships,” and that the creators of LLCs have “substantial flexibility”
in crafting the terms of the LLCs’ operating agreements, we
simply proceed through each of the six Schaden factors to determine whether the “particular LLC at issue” is, in fact, an investment contract. Great Lakes Chem., 96 F. Supp. 2d at 383, 392.

App. 19
do not in and of themselves affect whether the investors in the LLC had the ability to control the profitability of their investments. See Howey, 328 U.S. at 301,
66 S.Ct. 1100 (“The test is whether the scheme involves
an investment of money in a common enterprise with
profits to come solely from the efforts of others. If that
test be satisfied, it is immaterial whether the enterprise is speculative or non-speculative. . . .”). We therefore employ these last three factors only to corroborate
our final conclusion that particular LLC interests are
or are not investment contracts.
We observe two final (but still significant) principles that we must consider when weighing the six
Schaden factors. First, Schaden’s “test of control is
an objective one,” so we do not consider “the control
that [the investors in the LLC] intended to exercise.”9
Schaden, 843 F.3d at 884 (emphasis added) (quoting
Bailey v. J.W.K. Props., Inc., 904 F.2d 918, 921–22 (4th
Cir. 1990)). Second, we assess the LLC investors’ degree
of control when they bought their interests “rather
than at some later time” after the circumstances bearing on control “have developed or evolved.” Shields, 744
F.3d at 646 (quoting SEC v. Merch. Capital, LLC, 483
F.3d 747, 756 (11th Cir. 2007)).
With this background in mind, we analyze each of
the six Schaden factors in turn to determine whether
9

We recognize that a different rule may apply in contexts
outside the LLC sphere. See, e.g., Shields, 744 F.3d at 646 (observing that when general partnerships are at issue, we do, in
fact, “look at the expectations of control”) (quoting SEC v. Merch.
Capital, LLC, 483 F.3d 747, 756 (11th Cir. 2007)).

App. 20
BFREF and PRES had the ability to control the profitability of their investments in Foxfield.
1.
As we noted above, Foxfield’s operating agreement
allowed BFREF and PRES to inspect and copy all of
Foxfield’s financial records and documents. That alone
powerfully suggests that BFREF and PRES had unfettered access to all necessary information about their
investments. See Schaden, 843 F.3d at 883 (noting that
the investors in the LLC had full access to information
when “the LLC agreement expressly stated” that they
“could inspect, examine, and copy” the LLC’s books).
Plaintiffs retort, though, that BFREF’s and PRES’s
broad access to Foxfield’s information is not what matters. Rather, they claim that BFREF and PRES never
had access to the financial records and documents of
the company from which Foxfield bought the tracts of
real estate. Mr. Robben could have easily drafted Foxfield’s operating agreement to give BFREF and PRES
access to that information, Plaintiffs argue, because
he was a partial owner of that other company. And
without that company’s information, the argument
continues, BFREF and PRES were unaware of critical
financial data that would have quickly proven that
purchasing the tracts of real estate was a bad idea.
Plaintiffs therefore maintain that BFREF and PRES—
unlike Mr. Robben—lacked access to the “information necessary to protect, manage, and control their

App. 21
investments” in Foxfield under the first Schaden factor.
Shields, 744 F.3d at 645.
The problem with Plaintiffs’ argument is twofold.
First, Plaintiffs direct us to no authority suggesting
that LLC members in Kansas have the right to access
the financial records and documents of another company. In fact, Kansas statutory law strongly implies
that LLC members only have the right to access relevant information about the LLC of which they are a
part. See Kan. Stat. Ann. § 17-7690(a)(1) (“Each member of a limited liability company . . . has the right . . .
to obtain from the limited liability company . . . [t]rue
and full information regarding the status of the business and financial condition of the limited liability
company.” (emphasis added)). We have a difficult time
seeing how Schaden’s first factor could cover information that BFREF and PRES probably did not have
a right to access even under normal circumstances.
But even if Mr. Robben’s partial ownership and intimate knowledge of that separate company instilled
BFREF and PRES with such a right, see Kan. Stat.
Ann. § 17-7690(a)(6) (noting that members of an LLC
have the right to access “information regarding the affairs of the [LLC] as is just and reasonable”), Plaintiffs’
argument fails for an even more fundamental reason.
The fact that Foxfield’s operating agreement did not
explicitly grant BFREF and PRES access to the selling
company’s information does not mean that BFREF and
PRES lacked access to that information. Indeed, Plaintiffs do not direct us to any evidence suggesting that
some barrier stood in BFREF’s and PRES’s way that

App. 22
prevented them from obtaining that company’s financial records and documents upon their request. And
without that evidence, we fail to see how BFREF and
PRES were at any informational disadvantage to Mr.
Robben even if they were aware when they bought
their interests that he currently possessed more information than them. After all, Foxfield did not consummate the purchase of the real estate from the selling
company until several weeks after BFREF and PRES
had bought into Foxfield. BFREF and PRES thus had
more than sufficient time to ask for and obtain the “information necessary to protect, manage, and control
their investments” before they finally authorized Mr.
Robben to buy that land.10
Thus, because BFREF and PRES very well may
not have had a right to access the selling company’s
information in the first place—and even if they did, no
evidence suggests that they were unable to access that
10

To the extent Plaintiffs are arguing that BFREF and
PRES needed access to the selling company’s financial records
and documents to avoid investing in Foxfield in the first place, we
note that that inquiry is outside the scope of this appeal. That
question pertains to BFREF’s and PRES’s choice to invest in Foxfield, not who had the ultimate control over those investments.
And so by extension, that question does not affect whether
BFREF’s and PRES’s interests were securities. See Schaden, 843
F.3d at 882 (observing that whether an LLC interest is an investment contract turns on “who has the ability to control the profitability of [the] investment” (quoting Gordon, 684 F.2d at 741)).
Rather, it affects the question of fraud—specifically, whether Mr.
Robben unlawfully induced BFREF and PRES to purchase their
interests by failing to disclose all relevant information to them
from the start. See 15 U.S.C. § 78j(b) (outlawing the use of fraudulent tactics “in connection with the purchase” of “any security”).

App. 23
information—we conclude that they were aware or
could have become aware when they purchased their
LLC interests of the information necessary to steer the
direction of their investments in Foxfield. Thus, the
first Schaden factor suggests that BFREF and PRES
had the ability to control the profitability of their investments.11
2.
BFREF’s and PRES’s contractual powers were extensive. Most notably, the operating agreement provided that Foxfield was member-managed, meaning
that “[t]he management of the [c]ompany [was] vested
in the Members.” BFREF and PRES were therefore
Foxfield’s primary decisionmakers. Certain decisions,
of course, required different levels of agreement among
the members—some decisions required a majority in
interest, others required a supermajority in interest,
and still others required unanimous consent—but
BFREF and PRES nonetheless remained responsible
for controlling and binding Foxfield. Again, that powerfully suggests that BFREF and PRES had the ability
to control the profitability of their investments at the
11

We emphasize that our conclusion that BFREF and PRES
had full access to information under the first Schaden factor is
specific to whether their interests in Foxfield were securities. For
that reason, we caution future courts and parties alike to not
blindly apply the principles we use today when they must analyze
questions of fraud. An investor’s “access to information” in that
context might have a very different meaning and effect than an
investor’s “access to information” in the securities context. See,
e.g., supra n.10.

App. 24
time of purchase. See Schaden, 843 F.3d at 883 (suggesting that member-managed LLCs allow the members “direct control over” their investments).
True, the operating agreement also required Foxfield to have certain officers, and it specifically required
the president (Mr. Robben) to run “the day to day operations” of the company. Even so, the operating agreement also explained that the president was “[s]ubject
to the decisions of the [m]embers” and responsible for
“caus[ing] all decisions of the [m]embers to be carried
into effect.” BFREF and PRES thus retained ultimate
control over the president (and thus over Foxfield) under the operating agreement, especially because that
agreement also gave BFREF and PRES the power to
elect and remove the president. See id. (“With the
power to choose and remove managers, [the members]
could supervise the individuals handling day-to-day
operations. . . .”). And even more, the operating agreement provided that Mr. Bartlett (the full owner of
BFREF) and Mr. Straub (the partial owner of PRES)
themselves were officers of Foxfield: Mr. Bartlett was
the company’s secretary, and Mr. Straub was the company’s vice president. So to the extent that Foxfield’s
officers had a say in the company’s management,
BFREF’s and PRES’s own members were among those
officers.
Finally, the operating agreement commanded Foxfield’s members to “devote so much of [their] time and
attention as is reasonably necessary and advisable to
manage the affairs of the [c]ompany to the best advantage of the [c]ompany.” While not a contractual

App. 25
power per se, that statement shows that, when BFREF
and PRES bought their interests in Foxfield, the operating agreement envisioned they would play a significant role in managing the company and its activities.
Thus, because BFREF’s and PRES’s contractual
powers were so vast, we conclude that the second
Schaden factor suggests they had the ability to control
the profitability of their investments in Foxfield.
3.
Despite BFREF’s and PRES’s broad contractual
powers on paper, the fact that they were the only two
members of Foxfield meant that, as we described
above, every decision required their mutual assent in
practice. Further, the fact that Mr. Robben was a 50%
owner of PRES through RDC meant that, under
PRES’s own operating agreement, PRES could not assent to any decision itself without first obtaining Mr.
Robben’s consent. As a result, Foxfield could not make
any binding decision without Mr. Robben’s say-so.
Plaintiffs argue that this reality means Mr. Robben was “irreplaceable or otherwise insulated from”
BFREF’s and PRES’s ultimate control, Schaden, 843
F.3d at 884, because BFREF and PRES could not dissolve Foxfield, amend its operating agreement, remove
Mr. Robben as president, or even cause the company to
act, without first getting the man’s explicit approval.
Cf. id. at 883–84 (concluding that the investors in the
LLC controlled the profitability of their investments
because, among other reasons, they had the ability to

App. 26
amend the LLC’s operating agreement, dissolve the
LLC, and remove the LLC’s officers all on their own).
We proceed through each of the three Williamson circumstances to determine whether the effect of these
peculiarities are as crippling as Plaintiffs claim they
are.
a.
BFREF’s and PRES’s powers as exercised were robust enough to avoid characterizing Foxfield as a de
facto limited partnership. Indeed, although BFREF
and PRES arguably required Mr. Robben’s consent to
make any decision for Foxfield, the opposite also remained true—that is, Mr. Robben could not make decisions12 on behalf of Foxfield (at least when BFREF and
PRES bought their interests) without their consent.13
12

By “decisions,” we mean the enumerated decisions listed
in Foxfield’s operating agreement that require the assent of its
members, not the day-to-day decisions that Mr. Robben could
make vis-à-vis his role as Foxfield’s president.
13
Or at least, Mr. Robben could not make decisions for Foxfield without BFREF’s consent. Indeed, unlike Foxfield’s operating agreement, the terms of PRES’s operating agreement make
clear that PRES was manager-managed (and not member-managed), and the manager at its helm was Mr. Robben’s company
RDC. And so while Mr. Straub and RDC/Mr. Robben each had
50% ownership interests in PRES, RDC/Mr. Robben could make
at least some decisions on behalf of PRES without Mr. Straub’s
consent.
But we ultimately need not decide whether RDC/Mr. Robben
could vote PRES’s 50% interest in Foxfield without Mr. Straub’s
consent. Regardless of the answer, Mr. Robben still needed
BFREF’s go-ahead to make decisions for Foxfield. The control of
Foxfield was thus interdependent no matter how we slice it. Thus,

App. 27
The relationship was symbiotic: as went BFREF and
PRES, so went Mr. Robben. And so at the very least,
BFREF and PRES had the requisite powers to prevent
Mr. Robben from acting on behalf of Foxfield. By any
measure, that amount of managerial control exceeds
the “restricted rights of a limited partner.” Shields, 744
F.3d at 646; see also In re Estate of Hjersted, 285 Kan.
559, 175 P.3d 810, 821 (2008) (observing that limited
partners in Kansas “must rely on the general partner
to make decisions” and enjoy only “significantly restricted” “rights to make decisions regarding partnership operations and property” (emphasis added)).14
The power dynamic shifted only when BFREF and
PRES passed the resolution authorizing Mr. Robben to
make and execute important decisions on behalf of
Foxfield. At that point, BFREF and PRES no longer
even had the ability to prevent Mr. Robben from doing
as he wished. But BFREF and PRES passed that resolution several weeks after they had purchased their
Foxfield interests. Their voluntary decision to give Mr.
Robben the full reins of authority therefore does not
for ease of application and to prevent confusion, we act as if Mr.
Robben needed Mr. Straub’s consent to vote PRES’s 50% interest
in Foxfield; presuming as much makes no difference in our analysis of the issues.
14
Plaintiffs make a half-hearted argument that the relevant
comparison is not whether BFREF’s and PRES’s powers were
much like that of a limited partner, but whether BFREF and
PRES had limited liability like a limited partner. Our precedent
makes clear that Plaintiffs are mistaken. See Shields, 744 F.3d at
647 (analyzing whether a general partnership “actually distributed powers similar to a limited partnership” (emphasis added)).

App. 28
impact how Foxfield distributed power to its members
when they bought their interests. If anything, passing that resolution simply confirms that BFREF and
PRES possessed and used significant managerial powers to control how Foxfield operated. See Shields, 744
F.3d at 646 (“[W]e may look at how the [enterprise] actually operated to answer the question of how control
was allocated at the outset” (quoting Merch. Cap., 483
F.3d at 754)).
BFREF and PRES nonetheless direct us to various
pieces of evidence suggesting that, when they bought
their interests, everybody involved (including Mr. Robben) expected Mr. Robben to run and control Foxfield.
But even if we assume that is true—and, to take it a
step further, even if we assume that the relevant parties intended from the start to pass a resolution granting Mr. Robben plenary powers—BFREF and PRES
fare no better. As we described above, Schaden prescribes that, at least in the LLC context, “the test of
control is an objective one.” Schaden, 843 F.3d at 884
(quoting Bailey, 904 F.2d at 921–22). The relevant inquiry thus concerns how much control BFREF and
PRES “could exercise” over Foxfield at the time of purchase, not whether they “expect[ed]” Mr. Robben to
solely manage the enterprise. Id. Accordingly, BFREF
and PRES’s professed intention (and subsequent choice)
to act in a more limited manner is immaterial; the
important detail is that, in reality, their powers were
more like those that general partners possess. See
Banghart, 902 F.2d at 808 (observing that general
partners possess “powers of control and supervision”).

App. 29
Thus, because BFREF and PRES could (and in
fact did) exercise a fair amount of control over Foxfield
and Mr. Robben in practice, they were not de facto limited partners under the first Williamson circumstance.
b.
When they purchased their interests in Foxfield,
both Mr. Bartlett and Mr. Straub possessed enough experience and knowledge in business affairs to intelligently exercise their powers under Foxfield’s operating
agreement. Their later use of those powers—i.e, passing the resolution—confirms as much.
True, this second Williamson circumstance primarily “focuses on the experience of investors in the
particular business, not the general business experience of the partners,” and we acknowledge that neither
Mr. Bartlett nor Mr. Straub were real estate developers
by trade. Shields, 744 F.3d at 647 (alteration in original
omitted) (emphasis added) (quoting Merch. Capital,
483 F.3d at 762). Even so, both men had participated
in real estate development projects with Mr. Robben in
the past, and Mr. Straub in particular would have also
been at least marginally familiar with the real estate
development industry through his expertise in real estate construction. And so while Mr. Bartlett and Mr.
Straub were not as experienced as Mr. Robben, they
were also not naïve or unsophisticated newcomers to
the real estate industry who lacked the ability to intelligently exercise their powers under Foxfield’s operating agreement. Cf., e.g., id. (concluding that the

App. 30
plaintiffs established the second Williamson circumstance when the enterprise at issue had involved “oil
and gas interests” and the investors in the enterprise,
whom the marketer had solicited by telephone cold
calls, had possessed “little, if any, experience in the oil
and gas industry”); Merch. Capital, 483 F.3d at 762
(concluding that the plaintiffs established the second
Williamson circumstance when the enterprise at issue
had involved “the debt purchasing business” and the
investors in the enterprise had been “members of
the general public”—specifically, “a railroad retiree, a
housewife, and a nurse”—who had “had no experience”
in that business).
Further, our focus on the experience of the investors in the particular business does not mean that
their general business experience is irrelevant. And
here, the broad experience of Mr. Bartlett (a technology
businessperson) and Mr. Straub (a real estate construction businessperson) in general business practices can only substantiate the idea that they knew
how to intelligently exercise their powers under the
operating agreement. At the very least, their substantial general business experience undercuts the opposite idea that they were unintelligent in that regard.
Consequently, because Mr. Bartlett and Mr.
Straub were capable of intelligently exercising their
powers under Foxfield’s operating agreement, the second Williamson circumstance also does not show that
BFREF and PRES had a practical inability to control
the profitability of their investments.

App. 31
c.
Mr. Robben did not possess an “entrepreneurial or
managerial ability” so unique that BFREF and PRES
had no realistic option except to rely on his efforts to
control the profitability of their investments in Foxfield. Shields, 744 F.3d at 644 (quoting Banghart, 902
F.2d at 807). BFREF and PRES had at least one other
realistic option on which to rely when they bought
their investments: their own entrepreneurial and
managerial abilities.
We recognize that was not the preferable option.
Indeed, without Mr. Robben’s input, BFREF and PRES
may have lacked the insight of a man who, as the thenpartial-owner of the targeted real estate, was intimately familiar with that land. Plaintiffs also allege
that Mr. Robben guaranteed profits to BFREF and
PRES by promising to re-buy some of the land from
Foxfield at a later date for a substantial sum. If true,
BFREF and PRES may have honestly believed when
they bought their interests that foregoing Mr. Robben’s
help would have been foolish because only he could deliver those guaranteed profits.
But a realistic alternative is not necessarily a preferable one. For instance, although Mr. Robben’s familiarity with the targeted real estate was advantageous,
it was not so extraordinary that it effectively prevented BFREF and PRES from researching the land
themselves and independently determining whether
they should assent to its purchase. Perhaps that option
would have taken longer or been more difficult given

App. 32
their limited (but material) experience in real estate
development, but it was an available option all the
same. Further, even if Mr. Robben did in fact guarantee
profits to BFREF and PRES via his own promise to rebuy the land in the future, nothing prevented BFREF
and PRES from rejecting that offer and testing the waters to see whether a more lucrative option was available. Declining supposedly surefire profits in the hope
of making even more money would have been risky
and perhaps even unwise (especially because hindsight now suggests that doing so may have been futile).
Even so, that does not change the fact that, when they
bought their interests in Foxfield, BFREF and PRES
had a realistic alternative to relying on Mr. Robben’s
efforts to make their investments profitable. Cf., e.g.,
Shields, 744 F.3d at 647–48 (concluding that a fact issue existed as to whether unexperienced investors had
a realistic alternative to the manager of the enterprise
under the third Williamson circumstance when the
manager promised them substantial profits and the
unexperienced investors lacked meaningful managerial powers); Merch. Capital, 483 F.3d at 764 (concluding that the investors had no realistic alternative to
the manager of the enterprise under the third Williamson circumstance when the manager “effectively had
permanent control over [the investors’] assets”).
To be sure, we also recognize that Mr. Robben,
as we have discussed, had a de facto veto power that
prevented BFREF and PRES from acting on their
own without his additional consent. So even if BFREF
and PRES wanted to spurn Mr. Robben’s offer of

App. 33
guaranteed profits and pursue profits in another manner, they would have had to persuade him to go along
with them. But we do not believe that de facto veto
power—at least when the investors in the LLC also
have a reciprocal veto power—is so unique as to satisfy
the third Williamson circumstance. Such a holding
would transform many run-of-the-mill LLC interests
into securities even when the investors retain a significant managerial power that makes them something
more than limited partners—namely, the power to prevent the manager or promoter from acting. See supra.
We do not think that the third Williamson circumstance applies to such a common way to structure and
organize an LLC. Rather, the word “unique” in that circumstance is narrower in scope and refers to entrepreneurial and managerial abilities specific to a particular
manager or promoter. But as we described above, even
if Mr. Robben’s abilities were unique, they were not so
unique under the facts here that they effectively required BFREF and PRES to depend on them. His veto
power aside, BFREF and PRES had realistic alternatives to exclusively relying on his efforts.
The third Williamson circumstance therefore does
not establish that BFREF and PRES had a practical
inability to control the profitability of their investments in Foxfield.15
15

As we noted above when describing BFREF’s and PRES’s
access to information, see supra n.11, we caution courts and parties alike not to take our conclusion that BFREF and PRES had
realistic alternatives to relying on Mr. Robben’s efforts to mean
that Mr. Robben is not responsible for allegedly defrauding

App. 34
4.
BFREF and PRES financed Foxfield with capital
contributions in the hundreds of thousands of dollars,
which could suggest that Foxfield was initially a poorly
financed scheme. On the other hand, as we noted above,
Mr. Robben allegedly promised BFREF and PRES guaranteed profits, which suggests that the business risks
were low and that the enterprise was non-speculative.
Thus, the adequacy of financing could suggest that
BFREF’s and PRES’s interest in Foxfield were investment contracts, but the business risks and the level of
speculation suggest that those interests were not investment contracts. See Ballard, 544 F.2d at 1065
(“Most investment contract cases involve the financing
of speculative and poorly financed schemes by soliciting funds from uninformed and unskilled investors.”).
We need not, however, sort out these mixed signals
from the final three Schaden factors. Again, we use
these factors only to corroborate whether LLC interests are investment contracts; they do not help us determine whether the investors had the ability to
control the profitability of their investments.
In conclusion, we hold that BFREF’s and PRES’s
ownership interests in Foxfield were not investment
contracts. Despite their purported expectation that Mr.
Robben would solely manage their investments, the objective facts show that BFREF and PRES had the

BFREF and PRES. Again, our analysis is specific to whether
BFREF’s and PRES’s LLC interests are securities, not whether
Mr. Robben engaged in fraud.

App. 35
requisite access to information and contractual powers
to control the profitability of those investments. And
the specific circumstances of this case show that
BFREF and PRES were not so dependent on Mr. Robben that they could not exercise ultimate control over
their investments under any of the three Williamson
circumstances. As a result, even though Mr. Robben exercised a fair amount of control over BFREF’s and
PRES’s investments, his efforts were not so “undeniably significant,” Maritan, 875 F.2d at 1457, as to satisfy
the Schaden/Howey test. We therefore affirm the district court’s conclusion that, “as a matter of law,”
BFREF’s and PRES’s interests in Foxfield were not securities under this first basis. Schaden, 843 F.3d at
882.
B.
Plaintiffs argue in the alternative that even if
BFREF’s and PRES’s interests in Foxfield were not investment contracts, the company at the very least operated as a vessel through which BFREF and PRES
agreed to share real-estate-development profits with
one another. Plaintiffs also observe that BFREF and
PRES could have obtained certificates from Foxfield reflecting as much. See Kan. Stat. Ann. § 17–76,112(c)
(“Unless otherwise provided in an operating agreement, a member’s interest in a limited liability company may be evidenced by a certificate of limited
liability company interest issued by the limited liability company.”). Plaintiffs therefore conclude that BFREF’s
and PRES’s interests in Foxfield were securities because

App. 36
those interests could be characterized as “certificate[s]
of interest or participation in any profit-sharing agreement.” See 15 U.S.C. § 78c(a)(10).
We reject Plaintiffs’ argument under the Supreme
Court’s decision in Marine Bank v. Weaver, 455 U.S.
551, 102 S.Ct. 1220, 71 L.Ed.2d 409 (1982). In that case,
the Supreme Court held that profit-sharing agreements
that are “not designed to be traded publicly” are not
securities under the 1934 Act. Id. at 560, 102 S.Ct.
1220; see also Landreth Timber Co. v. Landreth, 471
U.S. 681, 689 n.4, 105 S.Ct. 2297, 85 L.Ed.2d 692 (1985)
(observing that Marine Bank considered whether “a
privately negotiated profit[-]sharing agreement” is a
security). BFREF’s and PRES’s interests in Foxfield, in
turn, were not designed to be traded publicly; they instead arose out of a “private transaction” between Mr.
Robben, Mr. Bartlett, and Mr. Straub. Marine Bank,
455 U.S. at 559, 102 S.Ct. 1220. Thus, even if BFREF’s
and PRES’s interests could be characterized as certificates of interest or participation in a profit-sharing
agreement in theory, the economic reality underlying
those interests—i.e., that they were intended for private use—prevents us from ruling that they were securities. See id. at 559–60, 102 S.Ct. 1220.
Plaintiffs protest that conclusion by directing us
to the Supreme Court’s earlier decision in Tcherepnin
v. Knight, 389 U.S. 332, 88 S.Ct. 548, 19 L.Ed.2d 564
(1967). In that case, the Supreme Court stated that
“[i]nstruments may be included within any of [1934
Act’s] definitions, as [a] matter of law, if on their face
they answer to the name or description.” Id. at 339, 88

App. 37
S.Ct. 548 (emphasis added) (quoting SEC v. C. M.
Joiner Leasing Corp., 320 U.S. 344, 351, 64 S.Ct. 120,
88 L.Ed. 88 (1943)). The Tcherepnin Court later concluded that the instruments at issue in that case were
securities because they answered to the description of
certificates of interest or participation in any profitsharing agreement. Id. Plaintiffs thus argue that, under Tcherepnin, they need only look to the characteristics of BFREF’s and PRES’s interests in Foxfield and
not the economic reality underlying those interests to
prove that the interests were certificates of interest or
participation in a profit-sharing agreement.
Plaintiffs are mistaken. The Supreme Court later
expounded upon its decision in Tcherepnin and observed that it had concluded that the instruments in
that case were certificates of interest or participation
in a profit-sharing agreement “only after analyzing the
economic realities of the transaction.” Forman, 421
U.S. at 850 n.15, 95 S.Ct. 2051 (emphasis added). So at
best, Tcherepnin merely holds that courts must first
examine the economic realities underlying an instrument before determining whether that instrument answers to the description of a certificate of interest or
participation in a profit-sharing agreement. See id.; cf.,
e.g., Landreth, 471 U.S. at 685–97, 105 S.Ct. 2297
(holding that courts should look to a financial instrument’s name and characteristics alone and not to the
economic realities underlying that instrument when
determining whether it is common stock). Tcherepnin
thus supports rather than contradicts our conclusion
that Marine Bank requires us to do more than just

App. 38
connect the dots between the characteristics of a financial instrument and the characteristics of a certificate
of interest or participation in a profit-sharing agreement. See Marine Bank, 455 U.S. at 559–60, 102 S.Ct.
1220; see also Landreth, 471 U.S. at 689 n.4, 690, 105
S.Ct. 2297 (observing that a court must examine the
“economic reality underlying” a profit-sharing agreement—a task that requires uncovering whether the
agreement was “privately negotiated”—when determining whether that agreement “falls within the usual
concept of a security”).16
So in sum, because BFREF and PRES did not intend to publicly trade their interests in Foxfield, those
interests were not certificates of interest or participation in a profit-sharing agreement under the 1934
Act. The economic reality underlying those interests
rather than their outward characteristics rules the
day. BFREF’s and PRES’s interests in Foxfield thus
were not securities under Plaintiffs’ second argument.
C.
Finally, Plaintiffs argue that BFREF’s and PRES’s
interests in Foxfield were securities because those interests were commonly known by that label. See 15
16

In addition, the Supreme Court has also characterized the
statement from C.M. Joiner Leasing on which Tcherepnin rested
its conclusion—namely, that instruments “may be” securities “if
on their face they answer to the name or description”—as nonbinding dictum. Forman, 421 U.S. at 850, 95 S.Ct. 2051. Given
that statement originated as dictum, the persuasive value of the
specific portion of Tcherepnin that Plaintiffs cite is far weaker.

App. 39
U.S.C. § 78c(a)(10) (“The term ‘security’ means . . . any
instrument commonly known as a ‘security’. . . .”).
Plaintiffs note, for example, that Foxfield’s operating
agreement says that “an [i]nterest in [Foxfield] shall be
and is a ‘security’ as defined in and governed by Article
8 of the Uniform Commercial Code” for “purposes of the
Uniform Transfer on Death Security Registration Act
or any similar applicable legislation.” Given that all
fifty states have accepted Article 8 of the Uniform Commercial Code, Plaintiffs argue that—quite obviously—
BFREF’s and PRES’s interests in Foxfield must have
been instruments “commonly known” as securities.
Plaintiffs also observe that Foxfield’s operating
agreement prohibited the company’s members from
transferring their interests unless they first registered
those interests under the Securities Act of 1933 or obtained legal advice that they were exempt from registration requirements. Plaintiffs maintain that unless
those interests were securities in the first place,
BFREF and PRES would have had no reason to register those interests under the federal securities laws or
obtain advice about exemption. Cf. Tcherepnin, 389
U.S. at 341, 88 S.Ct. 548 (“It seems quite apparent that
. . . building and loan [lobbyists] would not have sought
an exemption from the registration requirements . . .
unless there was general agreement that the [Securities Act of 1933’s] definition of security . . . brought building and loan shares within the purview of the 1934
Act.”). Again, in Plaintiffs’ eyes, that means BFREF’s
and PRES’s interests in Foxfield must have been commonly known as securities as a matter of simple logic.

App. 40
But once again, Plaintiffs focus solely on the characteristics of BFREF’s and PRES’s interests in Foxfield,
not the economic realities of those interests. See supra.
And like certificates of interest or participation in a
profit-sharing agreement, the Supreme Court has held
that courts must examine those economic realities
when evaluating whether a financial instrument is one
commonly known as a security. See Forman, 421 U.S. at
851–52, 95 S.Ct. 2051 (commanding courts to “examine
. . . the economic realities of the transaction” when determining whether an instrument is commonly known
as a security). This time around, however, the economicreality analysis does not focus on the public or private
nature of the instrument. Rather, the Supreme Court
has held that the Howey test for investment contracts
is the proper economic measure here. See Landreth, 471
U.S. at 691 n.5, 105 S.Ct. 2297 (holding that “the Howey
test . . . appl[ies]” when a court must determine whether
an instrument is one commonly known as a security);
see also Forman, 421 U.S. at 852, 95 S.Ct. 2051 (“We perceive no distinction . . . between an investment contract
and an instrument commonly known as a security.” (internal quotation marks omitted)). And because
BFREF’s and PRES’s ownership interests in Foxfield do
not survive Howey, see supra, that means BFREF’s and
PRES’s interests also were not instruments commonly
known as securities even if the characteristics of those
interests suggested otherwise.
Thus, like their first two attempts, Plaintiffs’ third
and final basis for arguing that BFREF’s and PRES’s
interests in Foxfield were securities fails in the end. As

App. 41
a result, we conclude that those interests were not securities under the 1934 Act, and we affirm the district
court’s grant of summary judgment to Mr. Robben and
RDC on that claim.
III.
As a final note, Plaintiffs argue that the district
court abused its discretion by declining supplemental
jurisdiction over their twenty-three remaining state
law claims. In support, Plaintiffs observe that nearly
four years have passed since they filed their relevant
complaint, that the parties have engaged in a great
deal of discovery and filed many motions, and that the
parties have already filed and objected to the pretrial
order. Thus, after considering “the nature and extent of
pretrial proceedings, judicial economy, convenience,
and fairness,” Anglemyer v. Hamilton Cty. Hosp., 58
F.3d 533, 541 (10th Cir. 1995) (quoting Thatcher Enters. v. Cache Cty. Corp., 902 F.2d 1472, 1478 (10th Cir.
1990)), Plaintiffs maintain that “[r]equiring the parties
to start over again in state court is an affront to judicial economy,” especially since that would lead to “dramatically increasing” litigation costs.
For its part, the district court declined to exercise
supplemental jurisdiction under 28 U.S.C. § 1367(c)(3)
because it concluded that the copious state law issues
warranted a Kansas state court’s consideration in the
absence of the sole federal claim. Further, the district
court determined that retaining this case in federal
court might lead to inconsistent findings of fact or law

App. 42
given that a similar, corollary case already existed in
Kansas state court.
We discern no abuse of discretion. “[A] district court
should normally dismiss supplemental state law claims
after all federal claims have been dismissed, particularly
when the federal claims are dismissed before trial.”
United States v. Botefuhr, 309 F.3d 1263, 1273 (10th Cir.
2002). With that said, “we have [also] suggested that it is
appropriate, perhaps even advisable, for a district court
to retain supplemented state claims after dismissing all
federal questions when the parties have already expended a great deal of time and energy on the state law
claims.” Id. (citing Anglemyer, 58 F.3d at 541). But a district court does not abuse its discretion just because it
defies an appropriate and advisable suggestion—at least
as long as it gives good reasons for doing so. See id. We
believe that the many state law claims—twenty-three, to
be exact—are a good enough reason under the abuse-ofdiscretion standard to send this case to the Kansas state
courts despite the significant resources that the parties
have expended in federal court.
We therefore affirm the district court’s decision to
decline supplemental jurisdiction over the remaining
state law claims.
IV.
For the reasons we describe above, we AFFIRM.

App. 43
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
FOXFIELD VILLA
ASSOCIATES, LLC, et al.,
Plaintiffs,
v.
PAUL ROBBEN and
RDC HOLDINGS, LLC,

Case No.
12-2528/13-2120

Defendants.
MEMORANDUM & ORDER
This matter comes before the court upon defendants RDC Holdings, LLC (“RDC”) and Paul Robben’s
Motion for Summary Judgment on Plaintiff ’s Sole Federal Claim and Motion to Dismiss for Lack of Subject
Matter Jurisdiction (Doc. 183).
Also before the court are:
•

Defendants’ Motion Regarding Plaintiffs’ Rebuttal Experts (Doc. 157)

•

Defendants’ Motion for Summary Judgment
On Plaintiff ’s State Law Claims (Doc. 179)

•

Defendants’ Motion for Summary Judgment
On Defendants’ Affirmative Defenses (Doc
181)

•

Plaintiffs Bartlett Family Real Estate Fund,
LLC, Richard A. Bartlett, Foxfield Villa Associates, LLC, Pres, LLC, and Ernest J. Straub,

App. 44
III’s Motion for Summary Judgment on Question of Whether PRES, LLC and Bartlett Family Real Estate Fund, LLC FVA Interests, and
Bartlett’s FVA Note are Securities (Doc. 185)
•

Plaintiffs’ Motion for Summary Judgment on
Defendants’ Mitigation of Damages and Statute of Limitations Affirmative Defenses (Doc.
187)

•

Plaintiffs’ Motion for Summary Judgment on
Plaintiffs’ Affirmative Claims (Doc. 189)

•

Plaintiffs’ Motion to Strike [201] Memorandum in Opposition to Motion, [202] Memorandum in Opposition to Motion, [199]
Memorandum in Opposition to Motion, Exhibit A to Doc. 201, Exhibit B to Doc. 202, and
Exhibit B to Doc. 199 (Doc. 208)

•

Plaintiffs’ Motion for Leave to file a Sur-reply
in Opposition to Defendants’ Motion for Summary Judgment on Plaintiffs’ State Law
Claims and Suggestions in Support (Doc. 215)

•

Plaintiffs’ Motion to Exclude and/or Strike
Expert Evidence from Shawn D. Fox (Doc.
221) and

•

Defendants’ Motion to Exclude, Strike and/or
Limit Testimony of Plaintiffs’ Damages Expert (Doc. 223).

For the reasons explained more fully below, defendants’ motion (Doc. 183) is granted and the court denies all other motions as moot.

App. 45
I.

Background

Plaintiffs filed this case on August 10, 2012
against various defendants, not including RDC and
Robben (Doc. 1). The case was stayed January 17, 2013,
pending the resolution of a related action that was
pending in the District Court of Johnson County, Kansas (Doc. 34). In the meantime, on March 8, 2014, plaintiffs filed another federal suit involving the same
factual basis as this case and nearly identical parties,
adding defendants RDC and Robben. On August 9,
2013, the court consolidated the federal cases (Doc. 50).
The stay was not lifted until November 25, 2015, when
the court granted plaintiffs leave to file an amended
complaint that added RDC and Robben to this case
(Doc. 65). On May 25, 2016, the court entered a scheduling order, outlining agreed deadlines and procedures
for discovery in this case (Doc. 94). It does not appear
that the court ordered mediation in this case, in part
because it appeared fruitless to mediate when the
parties did not have “something remotely approaching
a common understanding of whether defendant RDC
Holdings, LLC is judgment-proof.” (Doc. 111.) “[T]he
parties have no common understanding of the fairly
simple key facts that should drive whether any judgment plaintiffs might obtain against Mr. Robben’s
company, co-defendant RDC Holdings, LLC, could be
satisfied.” (Id.)
On April 11, 2017, the court entered a pretrial order (Doc. 170). Plaintiffs objected to the order and
sought review (Doc. 175). The undersigned denied
plaintiffs’ motion for review on January 12, 2018 (Doc.

App. 46
230). The six motions for summary judgment currently
before the court were filed on May 5, 2017. (Docs 179,
181, 183, 185, 187, 189.)
II. Legal Standard
Summary judgment is appropriate if the moving
party demonstrates that there is “no genuine issue as
to any material fact” and that it is “entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). In applying this standard, the court views the evidence and
all reasonable inferences therefrom in the light most
favorable to the nonmoving party. Adler v. Wal-Mart
Stores, Inc., 144 F.3d 664, 670 (10th Cir. 1998) (citing
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986)).
The party moving for summary judgment has the
burden to show “the lack of a genuine issue of material
fact.” Ascend Media Prof ’l Servs., LLC v. Eaton Hall
Corp., 531 F. Supp. 2d 1288, 1295 (D. Kan. 2008) (citing
Spaulding v. United Transp. Union, 279 F.3d 901, 904
(10th Cir. 2002) (citing Celotex Corp. v. Catrett, 477 U.S.
317, 327 (1986))). Once the moving party meets this initial burden, the burden then shifts to the nonmovant
to “set forth specific facts showing that there is a genuine issue for trial.” Id. (citing Spaulding, 279 F.3d at
904 (citing Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986))).
The nonmovant may not rest on his pleadings or
“rely on ignorance of the facts, on speculation, or on
suspicion and may not escape summary judgment in

App. 47
the mere hope that something will turn up at trial.” Id.
(citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
259 (1986)); Conaway v. Smith, 853 F.2d 789, 794 (10th
Cir. 1988). Instead, the nonmovant is required to set
forth specific facts, by referencing affidavits, deposition
transcripts, or exhibits, from which a rational trier of
fact could find for him. Fed R. Civ. P. 56(c)(1); see also
Ascend Media, 531 F. Supp. 2d at 1295 (citing Adams
v. Am. Guar. & Liab. Ins. Co., 233 F.3d 1242, 1246 (10th
Cir. 2000)). Summary judgment is not a “disfavored
procedural shortcut”—it is an “integral part of the Federal Rules as a whole, which are designed to secure the
just, speedy and inexpensive determination of every
action.” Celotex Corp., 477 U.S. at 327 (quoting Fed. R.
Civ. P. 1).
II. Facts
A. The Parties and Their Businesses
The following facts were either uncontroverted or
viewed in the light most favorable to plaintiffs. The remaining parties to this suit are: plaintiffs Foxfield Villa
Associates, LLC (“FVA”); Richard A. Bartlett; Ernest J.
Straub, III; Bartlett Family Real Estate Fund, LLC
(“BFREF”); Pres, LLC (“Pres”); and defendants Paul
Robben and RDC Holdings, LLC (“RDC”).
Defendant Robben is an experienced single-family
and multi-family developer and formed RDC. Defendant Robben was involved with a prior company called
Foxfield Associates, LLC, that was formed in 2000.
Robben owned Woodstone, Inc., a Kansas corporation

App. 48
that was a 10 percent owner of Foxfield Associates,
LLC. The other 90 percent was owned by parties not
involved in this litigation. Foxfield Associates, LLC
owned the 9.16 acre tract that FVA eventually purchased. It also had millions of dollars of debt liability
to Bank of Blue Valley that defendant Robben personally guaranteed.
Defendant RDC has been out of business since
2013, but it had a single member, Development Services Corporation, which was owned by defendant
Robben, who was the sole officer, director, and shareholder. RDC’s charter was forfeited in 2014 for failing
to file an annual report.
Plaintiff Bartlett has started, owned, served as
CEO or chairman for, and sold various technology
companies earning millions. Plaintiff Bartlett was also
involved in several other real estate development projects with defendant Robben in the 2000s, including
the Olathe Condo project, the Maple Crest project, and
the Foxfield Villa project. Plaintiff BFREF is owned by
plaintiff Bartlett and his wife Dena Bartlett, who are
the only members.
Plaintiff Straub owns Straub Construction Company, Inc., which was incorporated in Kansas in 1988.
He also owns Straub Homes, LLC, which primarily
specializes in residential construction. Straub has
owned and constructed other real estate development
projects over the years, including Town & Country Villas in Shawnee, Kansas, in which he and his father
each had a 50 percent interest; and Chapel Ridge

App. 49
Multifamily, LLC, in which Straub had a 50 percent interest.
In 2006, plaintiff Straub and defendant RDC
formed Pres to acquire and develop the Mission Cliffs
townhome subdivision in Kansas City, Kansas.
Straub’s company, Straub Construction, was the contractor on the Mission Cliffs project. RDC was manager of Pres until it resigned on January 1, 2009
because it could not meet required financial contributions. It relinquished its ownership interest in Pres on
December 31, 2012. Straub is currently the only member of Pres.
FVA was organized in 2007, and the operating
agreement was signed by Robben and Straub on behalf
of Pres, and Bartlett on behalf of BFREF. Its members
are still Pres and BFREF, but defendant Robben owns
no interest.
B. The Foxfield Villa Project and Operating Agreement
In October 2007 defendant Robben sent plaintiffs
Bartlett and Straub a copy of a proposed operating
agreement for FVA. In 2008, plaintiffs Bartlett and
Straub signed the agreement, which granted BFREF
and Pres each a 50 percent ownership interest in FVA.
At the time, defendant RDC had a 50 percent ownership in Pres, which granted RDC a 25 percent interest
in FVA. BFREF and Pres each made a $200,000 capital
contribution prior to closing in March 2008. Pres’s

App. 50
contribution consisted of $100,000 contributions from
plaintiff Straub and defendant RDC.
The language in the operating agreement provides
that action may be taken by a majority in interest,
meaning any member or combination of members holding more than 50 percent interest in the company, unless otherwise specified. Some specific actions, such as
modifying the business purpose by engaging the company in other business, requires unanimous written
consent of all members or a supermajority. The agreement allowed any member with at least a 10 percent
interest to request a special meeting at any time and
for any member with a majority in interest to request
periodic meetings.
Officers were to be elected by a majority in interest, and include a president and secretary. The members were allowed to elect a treasurer, vice presidents,
treasurer(s), and secretaries in their discretion. Initially, the officers were defendant Robben serving as
president and treasurer; plaintiff Straub serving as
vice president; and plaintiff Bartlett serving as secretary. A majority determined salaries, if any, of officers.
The president was the CEO and COO of the company
and had general management of the day-to-day operations of the company. He was to “cause all decisions of
the Members to be carried into effect.” (Doc. 198-3, at
18.) The vice president acted in the president’s absence. The secretary recorded proceedings of meetings.
And the treasurer was to keep accounts and prepare
financial statements. Defendant Robben was removed
as president and treasurer of FVA in early 2009.

App. 51
Additionally, each member could designate the
names of two officers, directors, partners, members,
managers, employees, or other affiliates to serve as the
designated representatives of the member at meetings.
Each member was an agent for FVA and each was
vested with management of the company.
The agreement required a majority in interest to
make business decisions as set out by the agreement.
The list included, but did not limit, actions requiring a
majority to: contracting with FVA’s legal, accounting
and professional advisors; purchasing property; borrowing from banks; decisions on suppliers and contractors; establishing prices and selling lots; forming and
operating home associations; insuring the company
and properties; investing funds; and approving documents.
The agreement required a supermajority, or 65
percent of the voting interest, to take certain specified
actions, including but not limited to: purchasing land;
filing for bankruptcy; assuming obligations or guarantees of other entities; and making loans or advances or
investments to other entities.
The agreement provided that “each Member shall
devote so much of its time and attention as is reasonably necessary and advisable to manage the affairs of
the Company to the best advantage of the Company.”
(Id. at 17.)
The agreement provided that financial records
would be maintained at the principal office of FVA and

App. 52
that every member had the right to inspect and copy
records.
In March 2008, to help with what were intended
to be short-term cash flow issues, plaintiff Bartlett
made an uncollateralized, unsecured $400,000 loan to
FVA for which he was to receive an 8 percent return.
$200,000 of the loan was repaid in September 2008.
Due to the financial crisis, the other $200,000 was not
repaid.
III. Discussion
A. Plaintiff ’s Count 9
1. The Securities Exchange Act of
1934
Whether defendants are entitled to summary
judgment on Count 9 depends on whether the investments plaintiffs made in FVA are “securities” within
the meaning of the Securities Exchange Act of 1934, 15
U.S.C. §§ 78a–qq. A plaintiff seeking the protections of
federal securities law must show that a defendant’s
misconduct involved the purchase or sale of a “security” as defined by the Act and interpreted by the federal courts. “The fundamental purpose undergirding
the Securities Exchange Acts is to eliminate serious
abuses in a largely unregulated securities market.”
Reves v. Ernst & Young, 494 U.S. 56, 60 (1990). The
United States Supreme Court explains that Congress
intended to encompass

App. 53
the virtually limitless scope of human ingenuity, especially in the creation of countless and
variable schemes devised by those who seek
the use of the money of others on the promise
of profits and determined that the best way to
achieve its goal of protecting investors was to
define the term security in sufficiently broad
and general terms so as to include within that
definition. . . . broad[ly] to encompass virtually any instrument that might be sold as an
investment.
Ernst, 494 U.S. at 60–61. The court noted however, that
Congress did not “intend to provide a broad federal
remedy for all fraud,” leaving the SEC and federal
courts ultimate task of determining which financial
transactions are covered by the statute. Id. at 61 (quoting Marine Bank v. Weaver, 455 U.S. 551, 556 (1982)).
Section 3(a)(10) defines “security” as
any note, stock, treasury stock, security future, security-based swap, bond, debenture,
certificate of interest or participation in any
profit-sharing agreement or in any oil, gas, or
other mineral royalty or lease, any collateraltrust certificate, preorganization certificate or
subscription, transferable share, investment
contract, voting-trust certificate, certificate
of deposit for a security, any put, call, straddle,
option, or privilege on any security, certificate
of deposit, or group or index of securities (including any interest therein or based on the
value thereof ), or any put, call, straddle, option, or privilege entered into on a national securities exchange relating to foreign currency,

App. 54
or in general, any instrument commonly
known as a “security”; or any certificate of interest or participation in, temporary or interim certificate for, receipt for, or warrant or
right to subscribe to or purchase, any of the
foregoing; but shall not include currency or
any note, draft, bill of exchange, or banker’s
acceptance which has a maturity at the time
of issuance of not exceeding nine months, exclusive of days of grace, or any renewal thereof
the maturity of which is likewise limited.
15 U.S.C. § 78c(a)(10) (emphasis added).
2. Defining Securities Exchange Act
“Investment Contracts”
Defendants argue that they are entitled to summary
judgment on plaintiffs’ Count 9 because the Tenth
Circuit in Avenue Management II, L.P. v. Schaden, 843
F.3d 876 (10th Cir. 2016), determined that limited liability companies’ investments, such as plaintiffs’ in
this case, are not securities as defined by the Securities
Exchange Act of 1934. Plaintiffs argue that their LLC
investments are “investment contracts” and that the
court should apply the Supreme Court’s decision in
S.E.C. v. W.J. Howey Co., 328 U.S. 293 (1946). The court
finds both decisions applicable, but neither as determinative as the parties would argue, because the definition of “securities” for purposes of coverage by the
Securities Exchange Act necessarily depends on the
facts of each case and the investment at issue.

App. 55
Count 9 is brought only against defendant Robben
and only by plaintiffs BFREF and Pres based on their
ownership interest in FVA and plaintiff Bartlett based
on the $400,00[0] loan he made FVA in March 2008.
Defendant RDC and plaintiffs FVA and Straub are not
parties to Count 9. Count 9 states that defendant Robben violated sections 10(b) and 10(b)5 of the Securities
Exchange Act of 1934. Plaintiffs include general factual contentions, but they provide no further details
specific to Count 9 in the pretrial order, except to note
for the purposes of damages, defendant Robben acted
maliciously with wanton reckless disregard to plaintiffs’ rights, which should entitle plaintiffs to punitive
damages and attorney fees. (Doc. 170, at 40.) The parties do not raise, so the court will not address whether
this conclusory assertion is sufficient even to survive
the motion to dismiss stage of a case. For example,
plaintiffs do not support this allegation with factual
allegations about how defendants allegedly violated
the Securities Exchange Act. Whether or not plaintiffs
explained this allegation in more depth in a former
pleading is irrelevant as the pretrial order superseded
all previous pleadings. Especially in a case with over
twenty separate claims, plaintiffs should have specifically set out which facts supported their Count 9 for
violations of the Securities Exchange Act.
An instrument is an “investment contract” for purposes of the Securities Exchange Act if it is “a contract,
transaction or scheme whereby a person invests his
money in a common enterprise and is led to expect
profits solely from the efforts of the promoter or a third

App. 56
party . . . ” Howey, 328 U.S. at 298–99. The Tenth Circuit has considered whether investors’ “expected profits from [their] investments were to come solely from
the efforts of others.” Schaden, 843 F.3d at 882 (quoting
Howey, at 301). This is because “[a]n investor who has
the ability to control the profitability of his investment,
either by his own efforts or by the majority vote in
group ventures, is not dependent upon the managerial
skills of others.” Id. (quoting Gordon v. Terry, 684 F.2d
736, 741 (11th Cir. 1982)). The greater the control
plaintiffs had over their investment, “the weaker the
justification to characterize their investments as investment contracts” subject to the protections of the
Securities Exchange Act. Id. To determine the degree
of investor control, courts apply an objective analysis,
focusing on the level of control investors could exercise,
not the control they chose to exercise in fact. Id. at 884.
Courts consider investors’ “contribution of time and effort to the success of the enterprise, their contractual
powers, their access to information, the adequacy of financing, the level of speculation, and the nature of the
business risks.[”] Id.
In Schaden, the Tenth Circuit found that owners
of an LLC sufficiently controlled the profitability of
their investment that they did not constitute investment contracts under the Securities Exchange Act.
Specifically, the Tenth Circuit noted that
•

although the LLC was manager-managed, the
daily operations were controlled by the officers rather than the members, and the members expected the board and officers to operate

App. 57
the investment company, the investors retained control because they collectively owned
80 percent of the LLC;
•

could freely amend the LLC agreement;

•

could choose eight of nine managers and remove them without cause;

•

could receive audited and unaudited financial
statements, and inspect, examine, and copy
the investment company’s books;

•

designate non-voting members to attend
board meetings;

•

and the investors were sophisticated, informed, and capable of making informed decisions.

Id. at 882–85. The Tenth Circuit found that the interests involved in Schaden could only be considered investment contracts if the investment company’s
“managers and officers were irreplaceable or otherwise
insulated from [the investors’] ultimate control.” Id. at
884.
In Howey, the United States Supreme Court found
that the investments at issue were “investment contracts” as defined by the Securities Exchange Act. Investors were offered
an opportunity to contribute money and to
share in the profits of a large citrus fruit enterprise managed and partly owned by respondents. [Investors resided] in distant
localities and [lacked] the equipment and

App. 58
experience requisite to the cultivation, harvesting and marketing of the citrus products.
Such persons have no desire to occupy the
land or to develop it themselves; they are attracted solely by the prospects of a return on
their investment. Indeed, individual development of the plots of land that [were] offered
and sold would seldom be economically feasible due to their small size. Such tracts gain
utility as citrus groves only when cultivated
and developed as component parts of a larger
area. A common enterprise managed by respondents or third parties with adequate personnel and equipment is therefore essential if
the investors are to achieve their paramount
aim of a return on their investments. Their respective shares in this enterprise [were] evidenced by land sales contracts and warranty
deeds, which serve[d] as a convenient method
of determining the investors’ allocable shares
of the profits.
328 U.S. at 299–300.
3. Plaintiffs’ Investments Were Not
“Investment Contracts”
The only issue that was briefed and before the
court on this motion is whether plaintiffs’ investments
constituted investment contracts. The investments
plaintiffs made in FVA were made between investors
in a common scheme for which they expected to receive
a financial benefit from profits generated by FVA. The
issue then, is whether, according to the Howey case and

App. 59
its progeny, profits were to be derived solely from the
efforts of others. The court finds that they were not.
Plaintiffs were not mostly passive investors, especially
considering that investor control is determined objectively, meaning plaintiffs are considered to have the
level of control they could exercise—not necessarily
what they in fact chose to exercise.
Plaintiffs collectively owned 75 percent of FVA.
Plaintiffs argue that this was in fact, only a 50 percent
interest owned by BFREF, because the Pres interest
was entirely controlled by defendant RDC and therefore, defendant Robben. RDC did manage Pres at the
time FVA was formed and therefore controlled, according to plaintiffs, 100 percent of Pres’s interest in FVA.
The court is not persuaded by this argument. Both
Robben and Straub signed the operating agreement,
they contributed equal capital to the venture, and although Straub allowed RDC to manage Pres at the
time, there is nothing in the record that suggests that
Straub could not have changed management if he so
desired or that he relinquished his right to equal representation in the FVA venture by using RDC as a
manager. The court finds that despite Straub’s decision
to put RDC in the role of manager at Pres, plaintiffs
collectively had a majority interest in FVA, enough to
control all majority in interest and supermajority decisions—nearly all decisions the operating agreement
contemplated. They exercised their power by removing
Robben from his board roles at FVA.
The members had the ability to elect officers
with their simple majority. Nothing in the operating

App. 60
agreement suggests that the parties intended defendant Robben to manage FVA to the exclusion of plaintiffs taking an active role. The agreement continually
suggests that plaintiffs were member-managers,
whether they chose to exercise that authority or not.
Plaintiffs had the right to appoint two members each
to attend meetings. Plaintiffs were business-savvy investors, experienced in real-estate ventures. They engaged in business dealings with defendants on prior
occasions and had active roles in the management of
those investments. All parties knew the risks inherent
to real-estate development and management, even discussing other investments at their depositions. (Docs.
184-10; 184-11.) Nothing in the FVA agreement suggests that such involvement was not contemplated or
at the very least objectively allowed under the operating agreement. As noted in the operating agreement,
each member was expected to “devote so much of its
time and attention as is reasonably necessary and advisable to manage the affairs of the Company to the
best advantage of the Company.” (Doc. 198-3, at 17.)
Although plaintiff Bartlett apparently made significantly more financial contributions to FVA, all members contributed capital contributions.
Plaintiffs had the right to inspect any FVA financial documents at any time and complete access to
FVA’s information. Plaintiffs argue that they needed
access to the initial Foxfield Associates, LLC documents. Plaintiffs were not investors in the Foxfield Associates, LLC venture, but they suggest that banking
entities and/or defendants defrauded them by failing

App. 61
to disclose information relevant to their purchase of
the 9.16-acre tract of land. But as noted above, the
Securities Exchange Act was not intended to provide a
broad federal remedy for all fraud. If plaintiffs cannot
show that their investments in FVA are securities as
defined by the law for purposes of the Security Exchange Act, federal court is not the proper venue for
addressing these claims. Plaintiffs provide no legal authority for their position. The court therefore limits its
examination to the FVA agreement, and plaintiffs had
complete access to FVA’s documents. Plaintiffs complain that defendant Robben and bank executives
misrepresented the financial prosperity of Foxfield Associates, LLC. But plaintiffs do not suggest that they
did not know there was an initial Foxfield Associates,
LLC enterprise. Knowing that an initial enterprise existed, it seems reasonable to the court that they might
have demanded to see its financial records before buying in. But such issues are not before the court.
If plaintiffs’ investments in FVA had constituted
securities under the Act, information about Foxfield
Associates, LLC, defendant Robben and the lending institution’s alleged actions in attempting to lure plaintiffs into making an investment in FVA and essentially
assuming defendant Robben’s debts, might have been
relevant to the court’s analysis of plaintiff ’s claims.
But because the court determines that the investments
were not securities, the court does not reach the substance of any claim that defendants violated the Act.

App. 62
4. Plaintiffs’ Investments Were Not
Securities for Any Other Reason
Plaintiffs argue that their investments in FVA
constitute securities for four additional reasons: because (1) the parties opted-in to the Uniform Commercial Code (“UCC”)’s standards on securities transfers
in the FVA operating agreement. (Doc. 198-3, at 1);
(2) plaintiffs’ interests have the same characteristics
as stocks and should therefore be considered securities; (3) the interests “can be reflected in certificates
showing rights in a profit-sharing agreement” and are
therefore securities (Doc. 198, at 29); and (4) plaintiff
Bartlett’s $400,000 note is presumed a security unless
defendants can show that it bears a resemblance to a
judicially-enumerated exception. Plaintiffs suggest
that defendants’ failure to argue that plaintiffs’ FVA
investments are not “securities” for these four additional reasons should foreclose the possibility of the
court granting summary judgment in defendants’ favor. The court disagrees.
The court views this as a more fundamental problem—plaintiffs’ failure to adequately plead Count 9 in
the pretrial order, and likely in previous pleadings.
Plaintiffs include no factual allegations supporting
their argument that defendants violated the Securities
Exchange Act. The statement that defendant Robben
violated sections 10(b) and 10(b)5 of the Securities
Exchange Act of 1934, does not put defendant Robben
on notice of the claims against him. Defendant was unable to know based on this statement whether plaintiff
was alleging that plaintiff Bartlett’s loan to FVA was a

App. 63
“note” or that the LLC interests were “investment contracts.” An argument could be made that plaintiffs
waived their right to recovery on Count 9 for failure to
state a claim in the pretrial order.
Regardless, plaintiffs’ arguments are unsupported
by law or argument (in this set of briefing) and simply
listing them as alternate theories (for the first time) is
insufficient. Defendants direct the court, should the
court consider these arguments on the merits, to the
briefing on plaintiffs’ motion for summary judgment on
the issue of whether BFREF and Pres’s interests were
securities—a separate set of briefs on a separate motion for summary judgment. (Doc. 185.) The court declines to do so and will decide these issues based on the
briefing provided. The parties collectively decided to
file six separate motions for summary judgment in this
case, dividing the issues. Whether that was a strategy
to sidestep the court’s page-limits on motions, or some
other litigation strategy—because six separate motions were filed, the court has the discretion to address
them in the order that promotes judicial efficiency.
Even if the court decided plaintiffs’ four additional
arguments on the merits, the arguments would fail.
a. Plaintiffs’ Interests Are Not “Any
Interest or Instrument Commonly
Known as a ‘Security’” Under the
Securities Act
The Securities Act definition of “security” includes
“any interest or instrument commonly known as a

App. 64
‘security.’ ” 15 U.S.C. § 77b(a)(1). Plaintiffs argue that
their investments in FVA are “commonly known” to be
securities because the UCC section titled “Rules for
Determining Whether Certain Obligations and Interests Are Securities or Financial Assets.” This section
states “An interest in a . . . limited liability company is
not a security unless it is dealt in or traded on securities exchanges or in securities markets, its terms expressly provide that it is a security governed by this
Article, or it is an investment company security.” UCC
§ 8-103.
Plaintiffs’ investments do not fall under the definition of “security” under the Securities Exchange Act.
This does not allow them to try again with a new definition from a completely different statute. Plaintiffs
cite no authority suggesting that the UCC’s definition
of “security” may be substituted for the Security Exchange Act’s definition, or even suggesting that any investment falling under the UCC’s definition would
constitute an instrument “commonly known” to be a security. To the contrary, the plain language of the UCC’s
definition suggests that LLC interests typically are not
securities, enumerating a few exceptions to that general rule.
Even if the court accepted plaintiff ’s argument
that the UCC definition could establish instruments
commonly understood to be securities, it is not clear
that the FVA operating agreement would fall under
the UCC definition. It was not dealt or traded on a securities exchange or in a securities market. It is not an
investment company security. But plaintiffs argue that

App. 65
the operating agreement, by its terms, expressly provides that it is governed by the UCC.
First, plaintiffs argue that the language of the
operating agreement shows that its members intended
it to be governed by the Securities Exchange Act. The
agreement says
THE INTERESTS IN THIS COMPANY
HAVE NOT BEEN REGISTERED UNDER
THE SECURITIES ACT OF 1933, AS
AMENDED, OR UNDER THE SECURITIES
LAWS OF ANY STATE AND MAY NOT BE
SOLD, TRANSFERRED OR OTHERWISE
DISPOSED OF UNLESS REGISTERED UNDER THAT ACT AND THE APPLICABLE
STATE SECURITIES LAWS, OR THE COMPANY SHALL HAVE RECEIVED AN OPINION OF COUNSEL (WHICH COUNSEL
AND OPINION SHALL BE SATISFACTORY
TO THE COMPANY’S COUNSEL) THAT
REGISTRATION OF SUCH SECURITIES
UNDER THAT ACT AND UNDER THE PROVISIONS OF APPLICABLE STATE SECURITIES LAWS IS NOT REQUIRED.
(Doc. 186-7, at 1.) This at best, shows that if a member
decided to transfer their interest, they should seek
legal advice about which securities laws applied to
the interest in order to comply with the law. This statement does not expressly provide that the interests in
FVA are securities for the purposes of the UCC or
Securities Exchange Act. If the parties intended the
agreement to be covered by the Securities Exchange
Act they could have stated it, and they did not.

App. 66
Second, plaintiffs suggest that the definition of
“interest” in the operating agreement expressly provides that the FVA interests are governed by the UCC.
It states that “For purposes of the Uniform Transfer on
Death Security Registration Act or any similar applicable legislation, an Interest in the Company shall
be and is a “security” as defined in and governed by
Article 8 of the Uniform Commercial Code.” (Id. at 4.)
Again, the court disagrees with plaintiffs’ characterization of this language. If anything, it limits the definition of the FVA Interests as “securities” to the
Uniform Transfer on Death Security Registration Act.
It does not expressly say that the FVA interests should
be governed by the UCC generally and it does not even
mention the Securities Exchange Act. The drafters
could have expressly stated that the FVA interests
should be considered securities for purposes of federal
securities law. They did not.
b. Plaintiffs’ Interests Are Not “Stocks”
Under the Act
Next, plaintiffs argue that their interests in FVA
have similar characteristics as “stocks” and should
therefore be considered “securities” under the Act. The
United States Supreme Court’s decision in Landreth
Timber Co. v. Landreth, explained when “stock” is
covered by the Securities Exchange Act. 471 U.S. 681
(1985). The Supreme Court explained that investment
bearing the name “stock” is covered by the Securities
Act if it also has the characteristics usually associated
with common stock: “(i) the right to receive dividends

App. 67
contingent upon an apportionment of profits; (ii) negotiability; (iii); the ability to be pledged or hypothecated;
(iv) the conferring of voting rights in proportion to the
number of shares owned; and (v) the capacity to appreciate in value.” Id. at 686. The Supreme Court noted
that the definition of “securities” “includes both instruments whose names alone carry well-settled meaning
[such as stocks], as well as instruments of more variable character [that] were necessarily designated by
more descriptive terms such as investment contract.”
Id. 471 U.S. at 686. The Court explained that if the
Securities Act is to apply to unusual categories of investments, they must fall “within the usual concept of
a security.”
Here, plaintiffs ask the court to find that their investments are “like stock” in that they have the five
characteristics of stock outlined in Landreth Timber
Co. But plaintiffs are misapplying the Landreth decision. The Supreme Court noted that it was not enough
for an investment to bear the name “stock.” It must
also have the characteristics. Here, plaintiffs’ investments were not called stock. They do not even meet
the threshold requirement of bearing the label stock,
so the court need not determine that they also have
the characteristics of stock to qualify them as securities.

App. 68
c. Plaintiffs’ Investments Are Not
Certificates of Interest or Participation in a Profit-sharing Agreement
Third, plaintiffs argue that the [sic] they could issue themselves “certificates of LLC interest” and that
these papers should be considered “certificate[s] of
interest or participation in any profit-sharing agreement” as listed in the definition of “securities” in the
Act, relying primarily on the United States Supreme
Court’s decision in Tcherepnin v. Knight, 389 U.S. 332
(1967). The court disagrees.
In determining that the withdrawable capital
shares at issue in Tcherepnin were covered by the Act,
the Supreme Court applied the test for whether an investment contract is a security. The Court specifically
relied on the fact that the plaintiffs in that case were
dependent on the skill and efforts of others for the success of their investment. This court already determined that under the investment contract analysis,
the investments in this case were not securities because plaintiffs retained, at least objectively, the ability to control their investments. Plaintiffs’ argument
that they could hypothetically issue themselves “certificates of limited liability company interest” because
nothing in the FVA operating agreement prohibits
such action, does not convince the court that plaintiffs’
interests were the types of investments Congress contemplated to be “securities” under the Act.

App. 69
Likewise, the court is not persuaded by plaintiffs’
argument that their investments could constitute securities because the investments could “answer to the
name or description” of many of the items in the Act’s
definition of “security.” Plaintiffs’ interests in FVA are
not the type of interests that on their face seem to represent the very paradigm of a security—such as bonds
or shares of stock. Even if they were, the Supreme
Court has repeatedly shown that “bearing the label
stock is not of itself sufficient to invoke the coverage of
the Acts.” Landreth Timber Co., 471 U.S. at 686. Courts
must view the nature of the investment at issue and
determine whether it is the type of investment Congress intended to cover. This “catch-all” argument,
without more, is insufficient to survive summary judgment. Such an interpretation of the Act would run directly contrary to the Supreme Court’s directive that,
when “searching for the meaning and scope of the word
‘security’ in the Act, form should be disregarded for
substance and the emphasis should be on the economic
reality.” Tcherepnin. 389 U.S. at 336.
d. Plaintiff Bartlett’s $400,000 Note
is Not a Security Under the Act
Finally, plaintiff Bartlett argues that his uncollateralized, unsecured $400,000 loan to FVA, half of
which was not repaid, constitutes a note and should be
considered a security under the Securities Exchange
Act. “[T]he phrase ‘any note’ [as it appears in the Securities Acts] should not be interpreted to mean literally ‘any note,’ but must be understood against the

App. 70
backdrop of what Congress was attempting to accomplish in enacting the Securities Acts.” Reves, 494 U.S.
at 63. A note is presumed to be a security. Id. at 67.
This presumption may be rebutted by the “family resemblance” test set out in Reves. Id. at 63–65. Several
categories of instruments that are generally considered “notes” but are not “securities” include:
the note delivered in consumer financing, the
note secured by a mortgage on a home, the
short-term note secured by a lien on a small
business or some of its assets, the note evidencing a ‘character’ loan to a bank customer,
short-term notes secured by an assignment of
accounts receivable, or a note which simply
formalizes an open-account debt incurred in
the ordinary course of business (particularly
if, as in the case of the customer of a broker, it
is collateralized).
Id. (quoting Exch. Nat’l Bank of Chicago v. Touche Ross
& Co., 544 F.2d 1126, 1138 (2d Cir. 1976)). It may also
be rebutted by arguing that another category of instruments should be added to the list by examining:
the motivations that would prompt a reasonable seller and buyer to enter into [the transaction]; (2) the plan of distribution of the
instrument, with an eye on whether it is an
instrument in which there is common trading
for speculation or investment; (3) the reasonable expectations of the investing public; and
(4) whether some factor such as the existence
of another regulatory scheme significantly reduces the risk of the instrument, thereby

App. 71
rendering application of the Securities Acts
unnecessary.
S.E.C. v. Thompson, 732 F.3d 1151, 1160 (10th Cir.
2013) (quoting Reves, 494 U.S. at 66).
First, regarding Bartlett’s motivations for making
the loan, the Supreme Court in Reves noted that
[i]f the seller’s purpose is to raise money for
the general use of a business enterprise or to
finance substantial investments and the
buyer is interested primarily in the profit the
note is expected to generate, the instrument
is likely to be a “security.” If the note is exchanged to facilitate the purchase and sale of
a minor asset or consumer good, to correct for
the seller’s cash-flow difficulties, or to advance
some other commercial or consumer purpose,
on the other hand, the note is less sensibly described as a “security.”
494 U.S. at 66. Although standing alone, receiving an
8 percent return represents a good investment for
Bartlett, and might indicate that the note was a security, the uncontested facts show that Bartlett’s loan
was intended to finance FVA’s short-term cash-flow issues until the company could start selling lots. The
loan was intended to be repaid within a short timeframe. And Bartlett’s primary interest was in his new
venture succeeding. If the loan were made by an outside investor, the court would more likely find the outside investor’s motivation to be profit on the loan,
rather than addressing cash-flow issues. The court

App. 72
finds that this factor weighs in favor of the loan not
resembling a note for purposes of the Securities Act.
Second, plaintiffs make no argument that the loan
was a commonly traded instrument. There is no evidence that a request for a loan was made to anyone but
Bartlett. Loans were not solicited from the public or
even from anyone outside the FVA membership. This
factor weighs in favor of the loan not being considered
a note.
Third, the court considers whether the loan would
be viewed by objective purchasers as an investment. As
noted above, if an outside investor had offered to make
FVA a loan, the court would likely consider the reasonable expectation of that investor to be profits. But Bartlett was not an outside investor. This factor weighs in
favor of finding the loan a note under the Act.
Defendants concede the fourth element. There was
no other known regulatory scheme that would reduce
the risk of plaintiff Bartlett’s loan, rendering the protections of the Securities Act unnecessary. Although
this factor weighs in favor of the note being considered
a security for purposes of the act, the elements as a
whole suggest that it was not a note.
In sum, the court finds that on the very specific
facts of this case, that plaintiffs’ interests in FVA and
the loan plaintiff Bartlett made to FVA are not “securities” as defined by the Securities Exchange Act. The
interests were not marketed beyond a very limited
number of individuals; ultimately only BFREF and
Pres split 50 percent interests. Plaintiffs are not the

App. 73
type of inexperienced, uninformed investors the federal securities laws were enacted to protect. They both
had experience in real estate investments and had
previously worked with defendants on other real estate ventures. They were member investors who objectively granted themselves significant control over
FVA through the operating agreement they signed.
Whether they subjectively intended, or did exercise
that control is of limited interest or import to the
court’s decision. Plaintiffs chose defendant Robben to
be FVA’s president, thereby granting him the ability to
run the day-to-day operations of the enterprise. But
the record does not indicate that he was so uniquely
entrepreneurial that he could not have been replaced
for the enterprise to continue. Plaintiffs were not inexperienced, small investors completely relying on defendant Robben’s management because of their own
“lack of business knowledge, finances, or control over
the operation.” Fargo Partners v. Dain Corp., 540 F.2d
912, 915 (8th Cir. 1976).
For all these reasons, the court finds that the investments plaintiffs made in FVA were not securities
for purposes of the Securities Exchange Act. Defendants are therefore entitled to summary judgment on
plaintiffs’ sole federal claim as a matter of law.

App. 74
B. The Court Declines to Exercise Supplemental Jurisdiction Over Plaintiffs’ Remaining 24 Counts
The sole issue remaining before the court is to decide whether this case should remain in federal court
in the absence of federal claims. The parties agree that
there is no diversity jurisdiction because the parties
are all citizens of Kansas. (Doc. 198, at 5 n.1.) If the
court dismisses all claims over which it had original
jurisdiction, 28 U.S.C. § 1367(c) provides that the court
may decline to exercise supplemental jurisdiction over
remaining state law claims. Whether to try state
claims in the absence of triable federal claim is discretionary, but the court should consider “the nature and
extent of pretrial proceedings, judicial economy, convenience, and fairness” when deciding whether to retain jurisdiction. Anglemyer v. Hamilton Cnty. Hosp.,
58 F.3d 533, 541 (10th Cir. 1995).
The pretrial proceedings in this case have taken
some time due to lengthy stays pending the resolution
of related state court actions. Defendant Robben’s
bankruptcy case was also pending during discovery in
this case, requiring further extensions. These delays do
not necessarily show that the nature or extent of pretrial proceedings warrants retaining the case in federal court when no federal claims remain. To the
contrary, because there was a state court case in Johnson County with similar factual issues and claims, retaining the state claims might result in inconsistent
findings of fact or law.

App. 75
The current governing pleading is the pretrial order. It contains 24 of the original 32 Counts, only one
of which was a federal claim. The clear majority of issues in this case were always state law claims and
should properly be decided by a state court, especially
now that the single federal claim is dismissed. The
court finds that the balance of factors favors dismissal.
The court declines to retain jurisdiction over the remaining claims. This case is dismissed.
IT IS THEREFORE ORDERED that defendants’ Motion for Summary Judgment on Plaintiff ’s
Sole Federal Claim and Motion to Dismiss for Lack of
Subject Matter Jurisdiction (Doc. 183) is granted.
IT IS FURTHER ORDERED that:
•

Defendants’ Motion Regarding Plaintiffs’ Rebuttal Experts (Doc. 157)

•

Defendants’ Motion for Summary Judgment
On Plaintiff ’s State Law Claims (Doc. 179)

•

Defendants’ Motion for Summary Judgment
On Defendants’ Affirmative Defenses (Doc
181)

•

Plaintiffs Bartlett Family Real Estate Fund,
LLC, Richard A. Bartlett, Foxfield Villa Associates, LLC, Pres, LLC, and Ernest J. Straub,
III’s Motion for Summary Judgment on Question of Whether PRES, LLC and Bartlett Family Real Estate Fund, LLC FVA Interests,
and Bartlett’s FVA Note are Securities (Doc.
185)

App. 76
•

Plaintiffs’ Motion for Summary Judgment on
Defendants’ Mitigation of Damages and Statute of Limitations Affirmative Defenses (Doc.
187)

•

Plaintiffs’ Motion for Summary Judgment on
Plaintiffs’ Affirmative Claims (Doc. 189)

•

Plaintiffs’ Motion to Strike [201] Memorandum in Opposition to Motion, [202] Memorandum in Opposition to Motion, [199]
Memorandum in Opposition to Motion, Exhibit A to Doc. 201, Exhibit B to Doc. 202, and
Exhibit B to Doc. 199 (Doc. 208)

•

Plaintiffs’ Motion for Leave to file a Sur-reply
in Opposition to Defendants’ Motion for Summary Judgment on Plaintiffs’ State Law
Claims and Suggestions in Support (Doc. 215)

•

Plaintiffs’ Motion to Exclude and/or Strike
Expert Evidence from Shawn D. Fox (Doc.
221) and

•

Defendants’ Motion to Exclude, Strike and/or
Limit Testimony of Plaintiffs’ Damages Expert (Doc. 223).

are denied as moot.
Dated February 26, 2018, at Kansas City, Kansas.
s/ Carlos Murguia
CARLOS MURGUIA
United States District Judge

App. 77
15 U.S.C. § 78c. Definitions and application
(a)Definitions
When used in this chapter, unless the context otherwise requires –
***
(10) The term “security” means any note, stock,
treasury stock, security future, security-based
swap, bond, debenture, certificate of interest or
participation in any profit-sharing agreement or
in any oil, gas, or other mineral royalty or lease,
any collateral-trust certificate, preorganization
certificate or subscription, transferable share,
investment contract, voting-trust certificate, certificate of deposit for a security, any put, call,
straddle, option, or privilege on any security, certificate of deposit, or group or index of securities
(including any interest therein or based on the
value thereof ), or any put, call, straddle, option, or
privilege entered into on a national securities exchange relating to foreign currency, or in general,
any instrument commonly known as a “security”;
or any certificate of interest or participation in,
temporary or interim certificate for, receipt for, or
warrant or right to subscribe to or purchase, any
of the foregoing; but shall not include currency or
any note, draft, bill of exchange, or banker’s acceptance which has a maturity at the time of issuance of not exceeding nine months, exclusive of
days of grace, or any renewal thereof the maturity
of which is likewise limited.

App. 78
15 U.S.C. § 78j. Manipulative
and deceptive devices
It shall be unlawful for any person, directly or indirectly, by the use of any means or instrumentality of
interstate commerce or of the mails, or of any facility
of any national securities exchange –
(a)(1) To effect a short sale, or to use or employ
any stop-loss order in connection with the purchase or sale, of any security other than a government security, in contravention of such rules and
regulations as the Commission may prescribe as
necessary or appropriate in the public interest or
for the protection of investors.
(2) Paragraph (1) of this subsection shall not apply to security futures products.
(b) To use or employ, in connection with the purchase or sale of any security registered on a national securities exchange or any security not so
registered, or any securities-based swap agreement1 any manipulative or deceptive device or
contrivance in contravention of such rules and regulations as the Commission may prescribe as necessary or appropriate in the public interest or for
the protection of investors.
(c)(1) To effect, accept, or facilitate a transaction
involving the loan or borrowing of securities in
contravention of such rules and regulations as
the Commission may prescribe as necessary or

1

So in original. Probably should be followed by a comma.

App. 79
appropriate in the public interest or for the protection of investors.
(2) Nothing in paragraph (1) may be construed
to limit the authority of the appropriate Federal
banking agency (as defined in section 1813(q) of
Title 12), the National Credit Union Administration, or any other Federal department or agency
having a responsibility under Federal law to prescribe rules or regulations restricting transactions
involving the loan or borrowing of securities in order to protect the safety and soundness of a financial institution or to protect the financial system
from systemic risk.
Rules promulgated under subsection (b) that prohibit
fraud, manipulation, or insider trading (but not rules
imposing or specifying reporting or recordkeeping requirements, procedures, or standards as prophylactic
measures against fraud, manipulation, or insider trading), and judicial precedents decided under subsection
(b) and rules promulgated thereunder that prohibit
fraud, manipulation, or insider trading, shall apply to
security-based swap agreements to the same extent
as they apply to securities. Judicial precedents decided
under section 77q(a) of this title and sections 78i, 78o,
78p, 78t, and 78u-1 of this title, and judicial precedents decided under applicable rules promulgated
under such sections, shall apply to security-based swap
agreements to the same extent as they apply to securities.

App. 80
17 C.F.R. § 240.10b–5 Employment of manipulative
and deceptive devices.
It shall be unlawful for any person, directly or indirectly, by the use of any means or instrumentality of
interstate commerce, or of the mails or of any facility
of any national securities exchange,
(a) To employ any device, scheme, or artifice to defraud,
(b) To make any untrue statement of a material fact
or to omit to state a material fact necessary in order to
make the statements made, in the light of the circumstances under which they were made, not misleading,
or
(c) To engage in any act, practice, or course of business which operates or would operate as a fraud or deceit upon any person,
in connection with the purchase or sale of any security.
(Authority: Sec. 10; 48 Stat. 891; 15 U.S.C. 78j)

